<html>
<title> - PROTECTING UNACCOMPANIED CHILDREN: THE ONGOING IMPACTS OF THE TRUMP ADMINISTRATION'S CRUEL POLICIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
  PROTECTING UNACCOMPANIED CHILDREN: THE ONGOING IMPACTS OF THE TRUMP 
                    ADMINISTRATION'S CRUEL POLICIES

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2019

                               __________

                           Serial No. 116-62
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                        
                        
                        
                          ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
41-182PDF             WASHINGTON : 2020 
                         
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
              Subcommittee on Oversight and Investigations

                        DIANA DeGETTE, Colorado
                                  Chair
JAN SCHAKOWSKY, Illinois             BRETT GUTHRIE, Kentucky
JOSEPH P. KENNEDY III,                 Ranking Member
    Massachusetts, Vice Chair        MICHAEL C. BURGESS, Texas
RAUL RUIZ, California                DAVID B. McKINLEY, West Virginia
ANN M. KUSTER, New Hampshire         H. MORGAN GRIFFITH, Virginia
KATHY CASTOR, Florida                SUSAN W. BROOKS, Indiana
JOHN P. SARBANES, Maryland           MARKWAYNE MULLIN, Oklahoma
PAUL TONKO, New York                 JEFF DUNCAN, South Carolina
YVETTE D. CLARKE, New York           GREG WALDEN, Oregon (ex officio)
SCOTT H. PETERS, California
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                                CONTENTS

                              ----------                              
                                                                   Page
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................     2
    Prepared statement...........................................     3
Hon. Brett Guthrie, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     4
    Prepared statement...........................................     6
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7
    Prepared statement...........................................     8
Hon. Joseph P. Kennedy III, a Representative in Congress from the 
  Commonwealth of Massachusetts, prepared statement..............    10
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................    10
    Prepared statement...........................................    12

                               Witnesses

Ann Maxwell, Assistant Inspector General for Evaluation and 
  Inspections, Office of Inspector General, Department of Health 
  and Human Services.............................................    14
    Prepared statement...........................................    16
Jonathan H. Hayes, Director, Office of Refugee Resettlement, 
  Administration for Children and Families, Department of Health 
  and Human Services.............................................    27
    Prepared statement...........................................    29
    Answers to submitted questions...............................   101
Jonathan White, Commander, Public Health Service Commissioned 
  Corps, Department of Health and Human Services.................    42
    Prepared statement...........................................    44
    Answers to submitted questions...............................   113
John R. Modlin, Acting Deputy Chief of Law Enforcement 
  Operational Programs, Law Enforcement Operations Directorate, 
  Customs and Border Protection, Border Patrol, Department of 
  Homeland Security..............................................    51
    Prepared statement...........................................    53
    Answers to submitted questions...............................   117

                           Submitted Material

Subcommittee exhibit binder \1\

----------

\1\ The information has been retained in committee files and also is 
available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109953.


  PROTECTING UNACCOMPANIED CHILDREN: THE ONGOING IMPACTS OF THE TRUMP 
                    ADMINISTRATION'S CRUEL POLICIES

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2019

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Diana DeGette (chairwoman of the subcommittee) presiding.
    Members present: Representatives DeGette, Schakowsky, 
Kennedy, Ruiz, Kuster, Castor, Clarke, Peters, Pallone (ex 
officio), Guthrie (subcommittee ranking member), Burgess, 
McKinley, Griffith, Brooks, Mullin, Duncan, and Walden (ex 
officio).
    Also present: Representatives Cardenas, Barragan, and Soto.
    Staff present: Kevin Barstow, Chief Oversight Counsel; 
Billy Benjamin, Systems Administrator; Jeffrey C. Carroll, 
Staff Director; Manmeet Dhindsa, Counsel; Waverly Gordon, 
Deputy Chief Counsel; Tiffany Guarascio, Deputy Staff Director; 
Zach Kahan, Outreach and Member Service Coordinator; Chris 
Knauer, Oversight Staff Director; Jourdan Lewis, Policy 
Analyst; Kevin McAloon, Professional Staff Member; Meghan 
Mullon, Staff Assistant; Alivia Roberts, Press Assistant; Tim 
Robinson, Chief Counsel; Benjamin Tabor, Staff Assistant; 
Rebecca Tomilchik, Staff Assistant; C. J. Young, Press 
Secretary; Jen Barblan, Minority Chief Counsel, Oversight and 
Investigations; Mike Bloomquist, Minority Staff Director; Adam 
Buckalew, Minority Director of Coalitions and Deputy Chief 
Counsel, Health; Margaret Tucker Fogarty, Minority Staff 
Assistant; Brittany Havens, Minority Professional Staff Member, 
Oversight and Investigations; Peter Kielty, Minority General 
Counsel; and J. P. Paluskiewicz, Minority Chief Counsel, 
Health.
    Ms. DeGette. The Subcommittee on Oversight and 
Investigations hearing will now come to order. Today, the 
committee is holding a hearing entitled ``Protecting 
Unaccompanied Children: The Ongoing Impact of the Trump 
Administration's Cruel Policies.''
    The purpose of today's hearing is to examine the Trump 
administration's care for unaccompanied children in Government 
custody and the impact of administration policies on the health 
and well-being of children. The Chair now recognizes herself 
for an opening statement.

 OPENING STATEMENT OF HON. DIANA DeGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Today, this committee is continuing its oversight of the 
Trump administration's care for unaccompanied children. Last 
year, thousands of children were forcibly separated from their 
parents by the Trump administration. We heard the horror 
stories of how children were torn away from their families. No 
one will forget the images of crying children and helpless 
parents. Frankly, we all agree it is a shameful chapter in this 
country's history.
    In February, this subcommittee held a hearing about the 
callous family separation policy. Commander Jonathan White, who 
again joins us today--and I want to thank you, Commander 
White--testified that he tried to raise the alarm within the 
administration about the damage that would be done by 
separations. Unfortunately, those warnings went unheeded.
    We also heard from experts about how separating their 
children from their parents can cause a host of mental and 
physical health problems. We feared about the long-term 
traumatic consequences these children would endure for the rest 
of their lives. It appears now that we have proof that these 
fears have come true. A new report from the HHS Office of 
Inspector General is the first Government accounting that 
details the emotional, psychological toll of separation of 
children from their parents. And we just got this report this 
week.
    Last year, investigators from the OIG went to 45 ORR 
facilities and spoke to approximately 100 mental health 
clinicians who provide care for unaccompanied children, 
including those who were separated, and what they heard is 
frankly heartbreaking. Mental health clinicians described how 
children cried inconsolably, and they believed their parents 
had abandoned them. One ORR program director told OIG, ``Every 
single separated kid has been terrified. We are seen as the 
enemy.''
    OIG tells the story of one child who believed his father 
had been killed and that he would be killed also. Another 
medical director told OIG that the children described the 
emotional pain they were enduring, with one child saying, ``I 
can't feel my heart.'' We should not be surprised by these 
findings, but we should also not be complacent. We should take 
this report as a clarion call to ensure an injustice like this 
never happens again in this country.
    Moreover, there have been new developments since that 
crisis that again call into question this administration's 
ability to adequately care for unaccompanied children. This 
past summer, we were shocked again to see reports of children 
in unacceptable conditions at a CBP facility in Clint, Texas. 
Press accounts reported of toddlers at that facility without 
diapers, young children caring for infants they just met, and 
children unable to wash or to shower. I had to call Mr. Hayes 
during that ordeal to ensure that the agencies were working 
together to address these issues.
    To help alleviate that crisis, ORR eventually stood up an 
emergency influx facility in Carrizo Springs, Texas, but just 
as quickly as it got stood up, it got shut down. As the 
operator of the facility said, ``It was much too late.'' This 
episode raises important questions about how ORR and CBP are 
coordinating as they see trends shifting on the ground so that 
these kids are properly cared for. That is the most important 
thing.
    We are only beginning to appreciate the carnage that was 
unleashed by the administration last year, and it appears that 
unfortunately some have not learned their lesson as we see 
policies coming from this administration that fail to treat 
these children with dignity and respect every day. So today is 
an opportunity to have an accounting of the fallout from these 
policies and to hear what is being done to ensure that no 
child, no child is ever neglected again in the custody of this 
Government.
    Finally, I just want to speak really briefly to the 
committee's ongoing investigation into the family separation 
crisis. I know and the committee knows there are hundreds of 
dedicated career staff at HHS who are devoting their lives and 
their careers to caring for these children, and the men and the 
women of the Border Patrol put their lives on the line to 
protect our border. These staff did not create this crisis, and 
that is why the committee is demanding accountability from the 
leadership.
    But across the board, the administration is obstructing our 
legitimate congressional oversight to unprecedented levels, and 
it is no exception here. Our committee has had an 8-month-old 
request for documents from HHS about its role in the family 
separation crisis. HHS has produced thousands of nonresponsive 
documents in order to look cooperative while it withholds 
documents from key leaders to whom Commander White raised 
concerns. It is still unclear who knew about the family 
separation policy before it was enacted and what, if anything, 
they did to try to stop it. From what I have seen, it seems at 
best HHS leaders should have known that it was coming and did 
not try to stop it. But since they are hiding documents, we 
also have to ask whether they were complicit.
    So I hope the administration and HHS in particular will 
show good faith cooperation with Congress, end the stonewalling 
and air all the facts to let the American people see for 
themselves. And Ranking Member Guthrie and I both agree that 
documents should be produced. I talked to the administration 
several times and asked for narrow categories of documents to 
be produced, and they have not been produced. We once again 
repeat this demand.
    [The prepared statement of Ms. DeGette follows:]

                Prepared Statement of Hon. Diana DeGette

    Today, this committee is continuing its oversight of the 
Trump administration's care for unaccompanied children.
    Last year, thousands of children were forcibly separated 
from their parents by the Trump administration. We heard the 
horror stories of how children were ripped away from their 
family. None of us will ever forget the images of crying 
children and helpless parents. It was a shameful chapter in our 
country's history.
    In February, this subcommittee held a hearing about the 
callous family separation policy. Commander Jonathan White--who 
is here again today--testified that he tried to raise the alarm 
within the administration about the damage that would be done 
by separations. Unfortunately, those warnings went unheeded.
    We also heard from experts about how separating children 
from their parents can cause a host of mental and physical 
health problems. We feared about the long-term traumatic 
consequences these children would have to endure for the rest 
of their lives.
    It appears that those fears have come true. A new report 
from the HHS Office of Inspector General is the first official 
government accounting that details the emotional and 
psychological toll separations had on children.
    Last year, investigators from the OIG went to 45 different 
ORR facilities and spoke to approximately 100 mental health 
clinicians who provide care for unaccompanied children, 
including those who were separated. What they heard is 
heartbreaking.
    Mental health clinicians described how separated children 
cried inconsolably, and believed their parents had abandoned 
them. One ORR program director told OIG [quote] ``Every single 
separated kid has been terrified. We're [seen as] the enemy.''
    OIG tells the story of one child who believed his father 
had been killed and that he would be killed, too. Another 
medical director told OIG that the children described the 
emotional pain they were enduring, with one child saying 
[quote] ``I can't feel my heart.''
    We should not be surprised by these findings, but we should 
also not be complacent. We should take this report as a clarion 
call to ensure an injustice like this never happens again.
    Moreover, there have been new developments since that 
crisis that again call into question this administration's 
ability to adequately care for unaccompanied children.
    This past summer, we were shocked again to see reports of 
children in unacceptable conditions at a CBP facility in Clint, 
Texas. Press accounts reported of toddlers at that facility 
without diapers, young children caring for infants they just 
met, and children unable to shower or wash their clothes. I had 
to call Mr. Hayes during that ordeal to ensure these agencies 
were working together to address these issues.
    To help alleviate that crisis, ORR eventually stood up an 
emergency influx facility in Carrizo Springs, Texas. But just 
as quickly as it was stood up, it was shut down. As the 
operator of that facility said, [quote] ``it was too much too 
late.'' This episode raises important questions about how ORR 
and CBP are coordinating as they see trends shifting on the 
ground, so that these kids are properly cared for.
    We are only just beginning to appreciate the carnage that 
was unleashed by this administration last year. And it appears 
that they have not learned their lesson, as we continue to see 
policies coming from this administration that fail to treat 
these children with dignity and respect.
    Today is an opportunity to have an accounting of the 
fallout from these policies, and to hear what is being done to 
ensure no child is ever neglected again in the custody of this 
government.
    Finally, I would like to speak to this committee's ongoing 
investigation into the family separation crisis.
    We know there are hundreds of dedicated career staff at HHS 
who devote themselves to caring for these children. And the men 
and women of the Border Patrol put their lives on the line to 
protect our border. Those staff did not create this crisis, and 
that is why this committee is demanding answers from leadership 
at those agencies.
    But across the board, the Trump administration has taken 
its obstruction of legitimate congressional oversight to 
unprecedented levels--and this is no exception.
    Our committee has an 8-month-old request for documents from 
HHS about its role in the family separation crisis. HHS has 
produced thousands of non-responsive documents in order to look 
cooperative while it withholds documents from key leaders to 
whom Commander White raised concerns.
    It is still unclear who knew what about the family 
separation policy before it was enacted and what, if anything, 
they did to try to stop it or mitigate its effects.
    From what we have seen, it seems that at best, HHS leaders 
knew or should have known it was coming and did not try to stop 
it. But at this point, since they are hiding documents, we also 
have to ask whether they were complicit.
    I hope this administration--and HHS in particular--will 
begin to show good-faith cooperation with this Congress, end 
the stonewalling, and air all of the facts to let the American 
people see for themselves.

    Ms. DeGette. And with that I yield back, and I recognize 
the ranking member for his opening statement for 5 minutes.

 OPENING STATEMENT OF HON. BRETT GUTHRIE, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Guthrie. Thank you. Thank you, Chair DeGette, for 
holding this hearing. The committee's oversight over the care 
and treatment of the unaccompanied alien children by the 
Department of Health and Human Services as well as the 
sponsorship process for unaccompanied children extends back to 
2014 with the first major influx of children and family units 
coming across our southern border.
    This influx overwhelmed the previous administration and 
resulted in children being placed with traffickers within the 
United States. Because of the work done by this committee and 
others, reforms were made to the Office of Refugee Resettlement 
program, including improving the medical care available to 
children while in HHS care and custody. And I believe our 
member of the committee Dr. Burgess was instrumental in that--
well, I know he was and I believe he was.
    Our work continued last Congress after the announcement and 
the end of the zero-tolerance initiative. As I said at our 
hearing earlier this year, I support strong enforcement of our 
Nation's borders, but I do not support separating children from 
their parents. It was clear then just as it is now that these 
separations caused harm to the children involved.
    This spring, the U.S. Department of Homeland Security and 
HHS experienced another surge of children and family units 
coming across our southern border. The influx of migrants this 
year has been higher than in previous years, including large 
groups of people illegally entering the United States. For 
example, on May 29th, CBP agents apprehended over a thousand 
migrants illegally crossing from our southern border as one 
group. Days earlier, CBP apprehended a group of over 400 
individuals in the same area. By the end of July, DHS had 
referred over 63,500 unaccompanied children to HHS for this 
fiscal year alone. That number, which has certainly increased 
over the past 2 months, exceeded the total number of referrals 
in the fiscal year 2016 by more than 4,000.
    As highlighted in several Inspector General reports from 
both DHS and HHS, capacity and resources at CBP and ORR 
facilities were strained well beyond their limits. The 
increased number of immigrants including unaccompanied children 
resulted in overcrowding at CBP facilities, as well as ORR 
facilities being at or near capacity. Among other problems, 
these capacity issues caused prolonged detention at CBP 
facilities that exceeded the 72-hour limit under the Flores 
settlement.
    Immigration trends are hard, if not impossible, to 
accurately predict. But influx numbers like the ones we saw in 
2014 and again this year are examples of why it is critical to 
ensure that ORR has a capacity model that enables the agency 
and its grantees to acclimate and be in a position to accept 
and care for the unpredictable number of children that ebb and 
flow by the day, let alone month or year.
    Whether it is bed capacity, challenges with hiring and 
retaining personnel, or ensuring that grantee staff are 
appropriately screened and trained before being hired or being 
allowed to interact with minors, all of these components are 
critical to ensuring that these children are cared for in the 
best available and safest way possible.
    It is not just HHS and ORR, though. This process from 
apprehension all the way to the placement of a child with a 
safe and appropriate sponsor crosses multiple departments and 
agencies within the Federal Government, which includes 
nongovernment entities such as ORR grantees. As a result, it is 
crucial to understand how CBP and HHS work together regarding 
their respective capacities, processing referrals, healthcare 
needs, background checks of potential sponsors, and more. 
Ensuring that this process in its entirety is working smoothly 
and efficiently will hopefully prevent some of the issues that 
arose earlier this year.
    Finally, this is the second hearing that this subcommittee 
has had on this topic this year, and I hope that we can start 
to discuss some solutions to the issues that we discussed at 
the hearing in February and I am sure we will be discussing 
again today. In addition to sharing any challenges they faced 
over the last year, I invite the witnesses to share any ideas 
that they may have, particularly if there are ways which 
Congress can help. It is an important function of this 
committee not only to conduct oversight but to use the 
information that is gained from its oversight to change the law 
when needed.
    I thank our witnesses for being here today and being part 
of this important discussion. I thank the Chair for holding 
this, and I yield back.
    [The prepared statement of Mr. Guthrie follows:]

                Prepared Statement of Hon. Brett Guthrie

    Thank you, Chair DeGette, for holding this hearing.
    This committee's oversight over the care and treatment of 
unaccompanied alien children by the Department of Health and 
Human Services, as well as the sponsorship process for 
unaccompanied children, extends back to 2014 with the first 
major influx of children and family units coming across our 
southern border. This influx overwhelmed the previous 
administration and resulted in children being placed with 
traffickers within the United States. Because of the work done 
by this committee and others, reforms were made to the Office 
of Refugee Resettlement program, including improving the 
medical care available to children while in HHS care and 
custody.
    Our work continued last Congress after the announcement and 
then end of the Zero Tolerance Initiative. As I said at our 
hearing earlier this year, I support strong enforcement of our 
Nation's borders, but I do not support separating children from 
their parents. It was clear then--just as it is now--that these 
separations caused great harm to the children involved.
    This spring, the U.S. Department of Homeland Security and 
HHS experienced another surge of children and family units 
coming across our southern border. The influx of migrants this 
year has been higher than in previous years, including large 
groups of people illegally entering the United States. For 
example, on May 29th, CBP agents apprehended over 1,000 
migrants illegally crossing from our southern border as one 
group. Days earlier, CBP apprehended a group of over 400 
individuals in the same area.
    By the end of July, DHS had referred over 63,500 
unaccompanied children to HHS for this fiscal year alone. That 
number, which has certainly increased over the past 2 months, 
exceeded the total number of referrals in fiscal year 2016 by 
more than 4,000. As highlighted in several Inspector General 
reports from both DHS and HHS, capacity and resources at CBP 
and ORR facilities were strained well beyond their limits. The 
increased number of immigrants, including unaccompanied 
children, resulted in overcrowding at CBP facilities as well as 
ORR facilities being at or near capacity. Among other problems, 
these capacity issues caused prolonged detention at CBP 
facilities that exceeded the 72-hour limit under the Flores 
settlement.
    Immigration trends are hard--if not impossible--to 
accurately predict. But influx numbers like the ones we saw in 
2014, and again this year, are examples of why it is critical 
to ensure that ORR has a capacity model that enables the 
agency, and its grantees, to acclimate and be in a position to 
accept and care for the unpredictable number of children that 
ebb and flow by the day, let alone month or year. Whether it's 
bed capacity, challenges with hiring and retaining personnel, 
or ensuring that grantee staff are appropriately screened and 
trained before being hired or being allowed to interact with 
minors--all of these components are critical to ensuring that 
these children are cared for in the best and safest way 
possible.
    It's not just HHS and ORR though. This process--from 
apprehension, all the way to the placement of a child with a 
safe and appropriate sponsor--crosses multiple departments and 
agencies within the Federal Government, and includes non-
government entities, such as ORR grantees. As a result, it is 
crucial to understand how CBP and HHS work together regarding 
their respective capacities, processing, referrals, health care 
needs, background checks of potential sponsors, and more.
    Ensuring that the process in its entirety is working 
smoothly and efficiently will hopefully prevent some of the 
issues that arose earlier this year.
    Finally, this is the second hearing that this subcommittee 
has had on this topic this year and I hope that we can start to 
discuss some solutions to the issues that were discussed at the 
hearing in February and I'm sure will be discussed again today. 
In addition to sharing any challenges they faced over the last 
year, I invite the witnesses to share any ideas that they may 
have, particularly if there are ways in which Congress can 
help.
    It is an important function of this committee not only to 
conduct oversight, but to use the information that is gained 
from its oversight to change the law when needed.
    I thank our witnesses for being here today and being part 
of this important discussion. I yield back.

    Ms. DeGette. The Chair will now recognize the chairman of 
the full committee, Mr. Pallone, for 5 minutes for purposes of 
an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    Today we are continuing our ongoing oversight of one of the 
most shameful actions of the Trump administration. Last year, 
this administration forcibly separated thousands of innocent 
children from their families, leading to widespread chaos and 
untold harm to these children. Experts sounded the alarm about 
what this would do to the children, and some of HHS's own 
career staff voiced concern at another oversight hearing on 
this issue earlier this year.
    But for reasons still unclear to this committee, those 
warnings were not heeded. Now the HHS Office of Inspector 
General has released a disturbing report on the effects the 
zero-tolerance policy has had on the children who were 
separated. The OIG is unambiguous, and I quote, ``separated 
children exhibited more fear, feelings of abandonment, and 
post-traumatic stress than did children who were not 
separated,'' unquote.
    Children were angry and confused because they believed 
their parents had left them. They isolated themselves, refused 
to eat. One separated child suffered such mental distress that 
he required emergency psychiatric care. These findings sound 
like they come from a dystopian novel, not a Government report 
in 2019. But perhaps the most troubling aspect of these 
findings is that they were completely avoidable. No child 
should have to endure this anywhere, and the fact that it was 
the result of intentional Government policy is outrageous.
    In addition to the family separation issue, there are 
lingering issues relating to planning and ongoing care for 
children in U.S. custody. For example, I want to understand how 
HHS's Office of Refugee Resettlement (ORR) and Customs and 
Border Protection (CBP) are communicating and planning so that 
they can better manage the spikes and populations that seem 
predictable. This summer, for example, we saw the complete 
chaos as ORR and CBP had to deal with the influx of kids that 
resulted in hundreds being jammed into filthy facilities that 
were never designed for that purpose. And as soon as an influx 
shelter was set up by ORR to help relieve this pressure, it was 
shut down a few weeks later. I think there are clearly planning 
and communication lessons that need to be learned from this 
episode, and I want to know what those lessons are and if they 
are now being implemented.
    Regardless of which agency is holding a child at any given 
time, we need to make sure that they are properly cared for 
throughout the system, and that includes ensuring that they 
receive appropriate vaccinations. It is critical that the 
administration has learned from its mistakes because, 
inexcusably, the administration continues to push policies that 
are only going to lead to more suffering.
    Recently, the Departments of Homeland Security and Health 
and Human Services issued a final regulation that essentially 
dismantles well-established protections for unaccompanied 
children known as the Flores Settlement. The regulation states 
that children will be treated, and I quote, ``with dignity, 
respect, and special concern for their particular 
vulnerability,'' unquote. But, frankly, after the way we have 
seen this administration's approach to these populations, this 
promise lacks any credibility. We are not here today to attack 
the men and women who are doing their best to support the 
missions of these agencies, but the leaders of these 
departments have deliberately implemented policies that are not 
in the best interest of these vulnerable children, and that is 
not acceptable.
    There are many issues we intend to explore at this hearing, 
but we should not lose sight of the fact that everything comes 
down to one thing. What is the Trump administration doing to 
make sure these children are properly cared for, and that 
should be at the forefront of our minds. We need answers to 
that question from the administration, and we are going to 
continue to hold the administration accountable to make 
significant improvements.
    So I look forward to hearing from the witnesses on how they 
are prioritizing these kids, and I would like to yield the last 
minute I have to the gentleman from Massachusetts, Mr. Kennedy.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Today we are continuing our ongoing oversight of one of the 
most shameful actions of the Trump administration.
    Last year, this administration forcibly separated thousands 
of innocent children from their families, leading to widespread 
chaos and untold harm to these children.
    Experts sounded the alarm about what this would do to the 
children. And some of HHS's own career staff voiced concern at 
another oversight hearing on this issue earlier this year. But 
for reasons still unclear to this committee, those warnings 
were not heeded.
    Now, the HHS Office of Inspector General has released a 
disturbing report on the effects the Zero Tolerance policy has 
had on the children who were separated.
    The OIG is unambiguous: [quote] ``Separated children 
exhibited more fear, feelings of abandonment, and post-
traumatic stress than did children who were not separated.'' 
[end quote].
    Children were angry and confused because they believed 
their parents had left them. They isolated themselves and 
refused to eat. One separated child suffered such mental 
distress that he required emergency psychiatric care.
    These findings sound like they come from a dystopian novel, 
not a government report in 2019.
    Perhaps the most troubling aspect of these findings is that 
they were completely avoidable. No child should have to endure 
this anywhere, and the fact that it was a result of intentional 
government policy is outrageous.
    In addition to the family separation issue, there are 
lingering issues related to planning and ongoing care for 
children in U.S. custody.
    For example, I want to understand how HHS's Office of 
Refugee Resettlement (ORR) and Customs and Border Protection 
(CBP) are communicating and planning so that they can better 
manage the spikes in populations that seem predictable.
    This summer, for example, we saw the complete chaos as ORR 
and CBP had to deal with the influx of kids that resulted in 
hundreds being jammed into filthy facilities that were never 
designed for that purpose.
    And as soon as an influx shelter was set up by ORR to help 
relieve this pressure, it was shut down a few weeks later. I 
think there are clearly planning and communication lessons that 
need to be learned from this episode, and I want to know what 
those lessons are, and if they are now being implemented.
    Regardless of which agency is holding a child at any given 
time, we need to make sure they are properly cared for 
throughout the system--and that includes ensuring they receive 
appropriate vaccinations.
    It's critical that the administration has learned from its 
mistakes because inexcusably the administration continues to 
push policies that are only going to lead to more suffering.
    Recently, the Departments of Homeland Security and Health & 
Human Services issued a final regulation that essentially 
dismantles well-established protections for unaccompanied 
children, known as the Flores settlement.
    The regulation states that children will be treated with 
[quote] ``dignity, respect, and special concern for their 
particular vulnerability.'' But frankly, after the way we have 
seen this administration's approach to these populations, this 
promise lacks any credibility.
    We are not here today to attack the men and women who are 
doing their best to support the missions of these agencies. But 
the leaders of these departments have deliberately implemented 
policies that are not in the best interest of these vulnerable 
children--and that is not acceptable.
    There are many issues we intend to explore at this hearing, 
but we should not lose sight of the fact that everything comes 
down to one thing: what is the Trump administration doing to 
make sure these children are properly cared for?
    That should be at the forefront of our minds. We need 
answers to that question from the administration, and we are 
going to continue to hold the administration accountable to 
make significant improvements. I look forward to hearing from 
the witnesses on how they are prioritizing these children.

    Mr. Kennedy. Thank you, Mr. Chairman.
    ``Every heartbeat hurts.''
    ``I can't feel my heart.''
    ``Child was under the delusion that his father had been 
killed and believed that he would also be killed.''
    These are the words included in an Inspector General report 
released earlier this month which tell the sickening story of 
this administration's family separation policy. Kids fleeing 
unimaginable violence and poverty and destitution arriving at 
our border to claim asylum and experiencing trauma in our 
Nation's name.
    Think about that for a minute, what they endured, what they 
fled, that they left a life where gangs indiscriminately killed 
family members and neighbors while meals were scarce and 
violence constant. And they made it here to the United States 
of America, a beacon and shining city of global light and 
freedom and an opportunity for good. The relief they must have 
felt touching our soil, and that is what they got. Those 
children, those babies, those toddlers will forever carry those 
scars with them.
    I look forward to getting some answers today. Yield back.
    [The prepared statement of Mr. Kennedy follows:]

            Prepared Statement of Hon. Joseph P. Kennedy III

    Quote: ``Every heartbeat hurts.'' End quote.
    Quote: ``I can't feel my heart.'' End quote.
    Quote: ``Child was under the delusion that his father had 
been killed and believed he would also be killed.'' End quote.
    These words, included in an Inspector General report 
released earlier this month, tell the sickening story of this 
administration's family separation policy.
    Kids fleeing unimaginable violence and poverty and 
destitution, arriving at our border to claim asylum and 
experiencing trauma in our Nation's name.
    Think about that for a second. What they had endured. What 
they had fled. They left a life where gangs indiscriminately 
killed family members and neighbors. Where meals were scarce, 
and violence was constant.
    And they made it here. The United States of America--this 
beacon, this shining city, this global light of freedom and 
hope and opportunity and good. The relief they must have felt 
to finally see us on the horizon.
    Instead, the nightmare continued.
    And those children--those babies, those toddlers--they will 
carry the scars we gave them forever.
    To the witnesses here today, you may have objected to 
heartless policies behind closed doors and argued against such 
unfathomable cruelty from the confines of your conference 
rooms, but that doesn't matter. That doesn't count. What 
matters now is what you do--what we do--next. How we take 
accountability for the profound mental trauma we inflicted on 
children we should have stopped at nothing to protect.

    Mr. Pallone. And I yield back, Madam Chair.
    Ms. DeGette. The gentleman yields back. The Chair now 
recognizes the ranking member of the full committee, Mr. 
Walden, for 5 minutes for purposes of an opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Chair DeGette, and thanks for 
holding this hearing. I want to thank our panel of witnesses. 
Some of you have been here before. We are appreciative of the 
work you and your teams are doing. We know it is a tough job. 
We look forward to continuing to work with you. As Republican 
Leader Guthrie stated, this committee has conducted oversight 
of the Office of Refugee Resettlement and Unaccompanied Alien 
Children programs since 2014. We saw a lot of problems in the 
Obama administration and mistakes that were made there and have 
tried to learn from those and not repeat them.
    Last Congress, I and every Republican member of this 
committee sent a letter to HHS seeking information from ORR to 
ensure that children who are in ORR's custody, whether they 
cross the border as an unaccompanied child or because they were 
separated from a parent or legal guardian during the zero-
tolerance initiative, are properly cared for while in ORR's 
care.
    I also led a bipartisan delegation of Members down to 
McAllen, Texas, a year ago in July, to visit and tour part of 
the southwest border. I wanted to see it firsthand. We looked 
at the central processing facility operated by CBP and an ORR 
shelter. My staff also visited five additional ORR facilities, 
including the temporary influx facility in Tornillo, Texas, 
that closed at the end of the last year.
    Earlier this summer, overwhelming numbers of migrants 
crossed the southwest border. This border crisis more than 
taxed the resources of every agency involved at each point in 
the process, and that includes CBP and ORR. So I wanted to see 
for myself again how CBP was handling this new surge of people 
at our southwest border, so I visited the CBP facility in Yuma, 
Arizona. By the time I had arrived in Yuma, Congress had 
finally--finally--acceded to the President's request for 
emergency funding, which I supported--I was the only one in the 
Oregon delegation to do so--and Yuma had a temporary processing 
facility in addition to the regular station.
    But just weeks before, the facility had been overwhelmed, 
at one point holding more than 1,600 migrants, including UACs. 
CBP agents I met with, they answered every single question I 
had and they talked to me about the difficulties they face. 
They also showed me every part of the facility, even the 
storage rooms which were filled with fresh diapers and clothing 
and food and other supplies.
    I also took a helicopter tour of the border, seeing parts 
of the Yuma sector that are so remote that air travel is 
necessary to efficiently and effectively patrol it. And I saw a 
cave on the top of a mountain where a cartel scout had lived 
for months, helping traffickers bring people and contraband 
into the United States illegally. And I saw the different types 
of border barriers in place in the Yuma sector, some of which 
are extremely ineffective at stopping people from entering the 
United States.
    Now on that same trip, I also traveled to Carrizo Springs, 
Texas, to see the ORR-funded temporary influx shelter that was 
operational at that time. And, as with other ORR-funded 
facilities, I and my staff have seen the children there were 
very well cared for. They received not just food and shelter, 
but also medical, educational, and counseling services.
    But was this too little, too late? This summer, before ORR 
was able to open Carrizo Springs, unaccompanied children spent 
far too long in CBP facilities, more than the 72 hours mandated 
by the Flores Settlement. CBP agents in Yuma told me that at 
the peak of the crisis children stayed in their Border Patrol 
facility for 7 to 10 days--and nobody thought that was 
acceptable, but they were overwhelmed.
    Unlike ORR facilities, CBP facilities are not meant to 
house children. It is critical that we move them into more 
appropriate facilities as quickly as possible. These 
immigration and border security issues are complex and 
something Congress has grappled with for decades. I have always 
been clear I support strong enforcement of our Nation's 
borders. A country that doesn't have control of its borders 
does not have control of its security.
    And children in the care of the Federal Government no 
matter where they are in the process or how they arrived here 
should be treated as if they were our own children. So I am 
pleased we have two of the agencies involved in the 
apprehension of the UACs before us today. We should note that 
they do not represent the full process, and it would be nice 
sometime in this committee if we could have the entire chain 
here of agencies involved so we saw a clear and full picture.
    I hope that HHS and CBP will also update us today on how 
they are using the funds provided by Congress earlier this year 
in the emergency supplemental, which the President requested 
and I supported, and how each agency is preparing for a likely 
increase in migrants in the coming months. We know there would 
be a dropoff in the extremely hot times in the summer, but we 
also know there will be a pickup. While immigration numbers are 
difficult to predict, there are patterns, and we must learn 
from this summer's crisis.
    And I also echo Republican Leader Guthrie's call for 
solutions. If there are legislative changes your agencies need 
from us, please let us know. If you need resources as you 
requested earlier this year, let us know. So I thank our 
witnesses for being here, for the work you and your teams do, 
and I yield back.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Thank you, Chair DeGette, for holding this hearing.
    As Republican Leader Guthrie stated, this committee has 
conducted oversight of the Office of Refugee Resettlement and 
the Unaccompanied Alien Children program since 2014.
    Last Congress, I, and every Republican member of this 
Committee, sent a letter to HHS seeking information from ORR to 
ensure that children who are in ORR's custody--whether they 
crossed the border as an unaccompanied child or because they 
were separated from a parent or legal guardian during the Zero 
Tolerance Initiative--are properly cared for while in ORR's 
care.
    I also led a bipartisan delegation of Members down to 
McAllen, Texas, a year ago in July to visit and tour part of 
the Southwest border, including the Central Processing Facility 
operated by CBP and an ORR shelter.
    My staff also visited five additional ORR facilities, 
including the temporary influx facility in Tornillo, Texas, 
that closed at the end of last year.
    Earlier this summer, overwhelming numbers of migrants 
crossed the Southwest border. This border crisis more than 
taxed the resources of every agency involved at each point in 
the process, including CBP and ORR.
    I wanted to see for myself how CBP was handling the surge 
of migrants at our Southwest border, so I visited a CBP 
facility in Yuma, Arizona. By the time I arrived in Yuma, 
Congress had provided emergency funding and Yuma had a 
temporary processing facility in addition to the regular 
station. But just weeks before, the facility had been 
overwhelmed, at one point holding more than 1,600 migrants, 
including UACs.
    The CBP agents I met with answered every one of my 
questions about the difficulties they faced. They also showed 
me every part of the facility--even the storage rooms filled 
with diapers, clothing, food, and other supplies.
    I also took a helicopter tour of the border--seeing parts 
of the Yuma sector that are so remote that air travel is 
necessary to efficiently and effectively patrol it. I saw a 
cave at the top of a mountain where a cartel scout lived for 
months, helping traffickers bring people and contraband into 
the United States illegally. And I saw the different types of 
border barriers in place in the Yuma sector--some of which are 
extremely ineffective at stopping people from entering the 
United States.
    On the same trip, I also traveled to Carrizo Springs, 
Texas, to see the ORR-funded temporary influx shelter that was 
operational at the time. As with the other ORR-funded 
facilities I and my staff have seen, the children were well-
cared for, receiving not just food and shelter, but also 
medical, educational, and counseling services.
    But was this too little too late? This summer, before ORR 
was able to open Carrizo Springs, unaccompanied children spent 
far longer in CBP facilities than the 72 hours mandated by the 
Flores Settlement. CBP agents in Yuma told me that, at the peak 
of the crisis, children stayed in their border patrol facility 
for 7 to 10 days. Unlike ORR facilities, CBP facilities are not 
meant to house children and it is critical that we move them 
into more appropriate facilities as quickly as possible.
    Immigration issues are complex, and something that Congress 
has grappled with for decades. I have always been clear, I 
support strong enforcement of our Nation's borders, but I do 
not support the separation of children from their parents. And 
children in the care of the Federal Government, no matter where 
they are in the process or how they arrived there, should be 
treated as if they were our own.
    I am pleased that we have two of the agencies involved in 
the apprehension and care of UACs before us today, but we 
should note that they do not represent the full process.
    I hope that HHS and CBP will also update us today on how 
they are using the funds provided by Congress earlier this year 
in the emergency supplemental, and how each agency is preparing 
for a likely increase in migrants in the coming months. While 
immigration numbers are difficult to predict, there are 
patterns, and we must learn from this summer's crisis. I also 
echo Republican Leader Guthrie's call for solutions. If there 
are legislative changes your agency needs, let us know. If 
there are resources you need, let us know.
    I thank our witnesses for being here today, and for the 
important work that they, and so many others at ORR and CBP do 
every day.

    Ms. DeGette. The gentleman yields back. The Chair now asks 
unanimous consent that the Members' written opening statements 
be made part of the record. Without objection, so ordered.
    I now would like to introduce the witnesses for today's 
hearing. Ms. Ann Maxwell, Assistant Inspector General for 
Evaluation and Inspections, Office of Evaluation and 
Inspections, Office of Inspector General, U.S. Department of 
Health and Human Services.
    Mr. Jonathan Hayes, Director, Office of Refugee 
Resettlement, Administration for Children and Families, U.S. 
Department of Health and Human Services.
    Commander Jonathan White, United States Public Health 
Service Commissioned Corps, U.S. Department of Health and Human 
Services.
    And Chief John R. Modlin, Acting Deputy Chief of Law 
Enforcement Operational Programs, Law Enforcement Operations 
Directorate, U.S. Border Patrol, U.S. Customs and Border 
Protection, U.S. Department of Homeland Security.
    Don't worry, we won't use the entire titles of each of you 
every time we ask you a question.
    But I do want to thank each one of you for appearing today. 
It is important that we hear all of your testimony. And I am 
sure all of you are aware this committee takes hearings--it is 
an investigative hearing, and so we have the practice of taking 
testimony under oath. Does anyone have an objection to 
testifying under oath?
    Let the record reflect that the witnesses have responded 
no.
    The Chair then advises you that, under the rules of the 
House and the rules of the committee, you are entitled to be 
accompanied by counsel. Does anybody wish to be accompanied by 
counsel today?
    Let the record reflect the witnesses have responded no.
    If you would then, please rise and raise your right hand so 
you may be sworn in.
    [Witnesses sworn.]
    Ms. DeGette. Let the record reflect that the witnesses have 
responded affirmatively, and you may be seated. You are all now 
under oath and subject to the penalties set forth under Title 
18, Section 1001 of the United States Code.
    And the Chair will now recognize our witnesses for a 5-
minute summary of their written statements. In front of you is 
a microphone and a series of lights. The light will turn yellow 
when you have a minute left, and it will turn red to indicate 
that your time has come to an end.
    Ms. Maxwell, you are now recognized for 5 minutes.

  STATEMENTS OF ANN MAXWELL, ASSISTANT INSPECTOR GENERAL FOR 
   EVALUATION AND INSPECTIONS, OFFICE OF INSPECTOR GENERAL, 
  DEPARTMENT OF HEALTH AND HUMAN SERVICES; JONATHAN H. HAYES, 
 DIRECTOR, OFFICE OF REFUGEE RESETTLEMENT, ADMINISTRATION FOR 
CHILDREN AND FAMILIES, DEPARTMENT OF HEALTH AND HUMAN SERVICES; 
 JONATHAN WHITE, COMMANDER, PUBLIC HEALTH SERVICE COMMISSIONED 
  CORPS, DEPARTMENT OF HEALTH AND HUMAN SERVICES; AND JOHN R. 
  MODLIN, ACTING DEPUTY CHIEF OF LAW ENFORCEMENT OPERATIONAL 
   PROGRAMS, LAW ENFORCEMENT OPERATIONS DIRECTORATE, BORDER 
 PATROL, CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND 
                            SECURITY

                    STATEMENT OF ANN MAXWELL

    Ms. Maxwell. Good morning, Chair DeGette and Ranking Member 
Guthrie and other distinguished members of the subcommittee. 
Thank you for the opportunity to discuss OIG's ongoing 
oversight of the Unaccompanied Alien Children Program 
administered by the Office of Refugee Resettlement. Today, I 
will be focusing on our findings regarding challenges ORR-
funded facilities face in addressing the mental health needs of 
children in their care.
    These facilities serve migrant children who arrive in the 
U.S. on their own or who are separated from their parents by 
immigration officials. These children have often experienced 
intense trauma before coming into ORR care, which is why prompt 
medical health treatment is not only required by ORR but is 
essential for children's well-being. My testimony reflects what 
we heard firsthand from facility staff across the country about 
the obstacles they face.
    We were told that there are a number of systemic challenges 
that make it difficult for staff to address the mental health 
needs of children. These include the ability to employ and 
support clinical staff. Mental health clinicians reported heavy 
caseloads. They also asked for more training and support to 
treat traumatized children. In addition, staff faced 
difficulties accessing specialty care such as psychologists and 
psychiatrists to treat children with greater needs. In one 
example, the only bilingual specialist a facility could find 
was located in another State.
    Finally, staff reported a lack of therapeutic placement 
options within ORR's network equipped to treat children who 
needed a higher level of care. This was especially acute for 
children who needed secure therapeutic settings due to their 
history of behavioral problems.
    To address these systemic challenges, we recommend that ORR 
leverage expertise and resources within HHS and the broader 
mental health community to ensure facilities have sufficient 
clinical staff who are fully supported and are able to access 
the needed specialty care for children.
    These systemic challenges, according to facility staff, 
were exacerbated by policy changes made in 2018. In the spring 
of 2018, the Department of Homeland Security formally adopted 
the zero-tolerance policy of criminally prosecuting all adults 
for illegal entry and placing their children in ORR facilities.
    Facilities reported that addressing the needs of children 
who have been separated from their parents unexpectedly was 
particularly challenging because these children exhibited more 
fear, feelings of abandonment, and post-traumatic stress than 
did children who were not separated.
    One medical doctor told us separated children would present 
physical symptoms as manifestations of their psychological 
pain. These children would say their chest hurt even though 
there was medically nothing wrong with them. One child said, 
``Every heartbeat hurts.''
    These children didn't understand why they were separated. 
As a result, some were angry, believing their parents had 
abandoned them. Others were anxious, concerned for their 
parents' safety. And as we've heard, one 8-year-old boy 
separated from his father was under the delusion that his 
father had been killed and that he was next, and he required 
emergency psychiatric care.
    Caring for separated children was additionally challenging 
because they were often younger than the teenagers the 
facilities were used to serving. Staff reported that younger 
children had shorter attention spans, needed greater 
supervision, and were more commonly exhibiting defiance and 
other negative behaviors. They couldn't always accurately 
communicate. The little ones, as one program director said, 
don't know how to express what they are feeling.
    Other policy changes that occurred in 2018 involved the 
process for discharging children to sponsors. ORR added new 
screening requirements and started sharing sponsor information 
with immigration officials. Staff noted that these changes led 
to longer stays in care for children, and that had a negative 
effect on their behavior and their mental health. They said 
that even children who entered care with good coping skills 
became disillusioned as their time in care dragged on, 
resulting in higher levels of hopelessness, frustration, and 
more instances of self-harm.
    While the policy changes made in 2018 have largely been 
reversed, facilities continue to serve separated children as 
well as children who are not quickly discharged from care. To 
address these continuing challenges and to ensure that children 
are not unnecessarily harmed, we recommend that ORR continue to 
reassess whether its current policies are negatively impacting 
children in any way and adjust as needed. We also recommend 
that ORR establish guardrails that ensure the future policy 
changes prioritize child welfare considerations above all other 
competing demands.
    Thank you to the committee for the opportunity to present 
this information and your ongoing support of our oversight 
work. I am happy to address any questions.
    [The prepared testimony of Ms. Maxwell follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. DeGette. Thank you so much, Ms. Maxwell.
    The Chair now recognizes Mr. Hayes for 5 minutes for 
purposes of an opening statement.

                 STATEMENT OF JONATHAN H. HAYES

    Mr. Hayes. Thank you, Chair DeGette, Ranking Member 
Guthrie, and members of the subcommittee. It is my honor to 
appear today on behalf of the Department of Health and Human 
Services. My name is Jonathan Hayes, and as the Director of the 
Office of Refugee Resettlement, I oversee the Unaccompanied 
Alien Children Program.
    I became the permanent Director earlier this year, and it 
is a privilege to serve in this role alongside the ORR career 
staff. I am continually impressed with the level of commitment 
and professionalism that I see in the ORR career staff and our 
grantees on a daily basis. The caring culture of ORR directly 
impacts our day-to-day operations and goals as well as a staff 
who carry out our round-the-clock operations of service of some 
of the world's most vulnerable children.
    I have visited over 50 UAC care providers over the last 
year so that I can see firsthand the quality of care that the 
ORR staff and grantees provide to the UAC. I also heard the 
perspectives and input from our field team, which allowed me to 
better understand ways to improve our services and overall 
mission. My strong desire is to ensure the safety and well-
being of the children in our care in a manner that is 
consistent with both the law and the prevailing child welfare 
best practices and one that empowers the career professionals 
and senior staff at ORR.
    As the director of ORR, I am committed to making decisions 
that are in the best interest of each child in ORR's care and 
custody. Prior to my time at ORR, I worked for two Members of 
the House of Representatives for approximately 8 years, and 
that experience provided me perspective into the important 
oversight role that you and your staff have in ensuring that 
Federal programs operate successfully.
    I apologize.
    In the Homeland Security Act of 2002, or the HSA, Congress 
placed the responsibility of care for UAC with ORR. The 
Homeland Security Act defines an unaccompanied alien child as a 
person under the age of 18 with no lawful immigration status 
and without a parent or legal guardian present in the United 
States available to provide for the care and custody of the 
child. Once an apprehending agency determines that the child is 
a UAC, that agency is responsible for referring the child to 
ORR. Congress instructed ORR to ensure that the best interests 
of the child are considered when providing care and custody for 
children. All of us at ORR take this responsibility to heart, 
and work every day to ensure the safety and well-being of the 
children in our care.
    To that end, based on the provisions of the Homeland 
Security Act, the Trafficking Victim Protection Reauthorization 
Act of 2008, and the provisions of the Flores Settlement 
Agreement, HHS has built a network of dedicated care providers, 
developed rules and standards for care for those providers, and 
created mechanisms of oversight to ensure compliance.
    HHS's role in the lives of UAC is often misunderstood. HHS 
does not apprehend migrants at the border or enforce 
immigration laws. The Department of Homeland Security and the 
Department of Justice perform those functions. ORR does not 
have jurisdiction over children that arrive with an adult 
parent. DHS is responsible for those families. HHS's UAC 
program is a humanitarian child welfare program designed for 
the temporary care of children until they can be safely 
released or unified with family or other sponsors.
    The number of UAC entering the United States during this 
fiscal year has risen to levels we have never seen before. As 
of September 16th of this year, DHS has referred more than 
67,000 UAC to us at ORR, which is the highest number in the 
program's history. By comparison, HHS received just over 59,000 
referrals in fiscal year 2016, which is the second-highest 
number on record. ORR operates nearly 170 State-licensed care 
provider facilities and programs in 23 States. ORR has 
different types of facilities in order to meet the different 
needs of the minors in our care.
    HHS is, again, deeply committed to the physical and 
emotional well-being of all children temporarily in our care. 
Staff at our care providers are trained in techniques for 
child-friendly and trauma-informed interviewing, ongoing 
assessment, observation, and treatment of the medical and 
behavioral health needs of the children, including those who 
have been separated from their parents.
    Care provider staff are trained to identify children who 
have been smuggled and/or trafficked into the United States. 
Care providers must provide services that are sensitive to the 
age, culture, and native language of each child. ORR provides a 
wide range of medical services to the children in our care. 
These services include a complete medical examination, routine 
medical and dental care, and emergency health services.
    Mental health services are available at all of our 
facilities. ORR policy requires at a minimum that the UAC and 
ORR State-licensed facilities receive an individual counseling 
session and two group counseling sessions with a clinician 
every week. Additional mental health services are available as 
needed. I believe that a child should not remain in ORR care 
any longer than the time needed to find an appropriate sponsor. 
A central part of ORR's mission is to discharge children from 
care as quickly as possible while ensuring their safety.
    As of the end of August of this year, the average length of 
time that a child stays in HHS's custody is approximately 50 
days, which is a dramatic decrease of over 40 percent from late 
November 2018, when the average length of care was 90 days. ORR 
will continue to assess the efficiency of its operations, to 
improve the process for release, and reduce the time a child 
remains in our care and custody.
    Again, my top priority and that of me and my team is the 
safety and well-being of the children in the temporary care of 
HHS as we work quickly and safely to release them to a suitable 
sponsor. Thank you for the opportunity to discuss our important 
work. I'll be happy to answer questions that you may have.
    [The prepared testimony of Mr. Hayes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Ms. DeGette. Thank you so much, Mr. Hayes.
    I now recognize Commander White for 5 minutes for purposes 
of an opening statement. Commander?

                  STATEMENT OF JONATHAN WHITE

    Mr. White. Chairwoman DeGette, Ranking Member Guthrie, and 
members of the subcommittee, it's my honor to speak again 
before you today on behalf of the U.S. Department of Health and 
Human Services. My name is Jonathan White. I'm a career officer 
in the U.S. Public Health Service Commission Corps. I'm also a 
social worker and emergency manager. I previously served as the 
Deputy Director of ORR, the senior career official over the UAC 
program, and more recently I served as HHS's operational lead 
for the interagency mission to reunify children in ORR care who 
had been separated from their parents at the border.
    Shortly after the Ms. L court issued its orders, Secretary 
Azar directed HHS and the Incident Management Team, which I led 
in particular, to take all reasonable actions to comply. The 
IMT worked closely with Department of Homeland Security, 
including CBP and our colleagues at ICE, to try to identify all 
parents of children in ORR care who potentially met the court's 
criteria for class membership. And as a result, the current 
reporting of possible children of potential Ms. L class members 
to the Ms. L court is 2,814 children. To be clear, that count 
of 2,814 children does not include children who had already 
been discharged by ORR before June 26th, 2018, nor does it 
include separated children referred to ORR care after that 
date.
    Working in close partnership with colleagues in ICE, DOJ, 
and the Department of State, we first worked to reunify 
children and parents in ICE custody. This was an unprecedented 
effort. It required a novel process, which we developed and 
which the court approved. And under the compressed schedule 
required by court order of 15 days for children under the age 
of 5, and 30 days for children age 5 to 17, we reunified 1,441 
children with parents in ICE custody, all of the children of 
eligible and available Ms. L class members who are in ICE 
custody.
    For children whose parents had been released to the 
interior of the United States, we implemented an expedited 
reunification process. For parents who had departed the United 
States, the ACLU, which serves as Plaintiff's counsel for the 
Ms. L class member parents, obtained from those parents their 
desire either to have the child reunified with them in home 
country or to waive reunification so the child could undergo 
standard ORR sponsorship process. And once we received the 
parents' desire for reunification, HHS, DHS, and DOJ 
coordinated with the ACLU, with the government of the home 
country, and with the child's family to ensure safe 
reunification into the care of the parents.
    Of the 2,814 children reported to the Ms. L court, as of 
September 6th, 2,787 have been discharged from ORR care. We 
reunified 2,168 of them with the parent from whom they were 
separated. Another 619 children have left ORR care through 
other appropriate discharges. There are 12 children still in 
ORR care whose parents are outside the U.S. and have waived 
reunification. There are four children in care who we later 
determined hadn't been separated.
    There are eight children in ORR care who were separated, 
but we cannot reunify them because we've made a final 
determination that the parent poses a clear danger to the 
safety of the child based on sound social work child welfare 
methods. There's one child in care whose parents are in the 
U.S. and have waived reunification. There's one child left for 
whom the ACLU has advised that the resolution of the parents' 
wishes will be delayed. One child from the ACLU could not 
obtain the parents' preference.
    As of April 25th of this year, the court also approved our 
plan to identify those children who had been separated from DHS 
starting on July 1st, 2017, referred to ORR, but had already 
been discharged pursuant to the TVPRA process before June 26, 
2018. Teams of U.S. Public Health Service Commissioned Corps 
officers reporting to me have completed manual review of the 
UAC portal, the UAC program's official record, case file review 
for every child whose referral and discharge dates fell in that 
range. We resolve to err on the side of inclusiveness in 
identifying any potential preliminary indication of separation.
    In weekly lists that data went from HHS, first to CBP, then 
to ICE where they could conduct their own manual records, and 
we since have been providing the ACLU on a rolling basis with 
lists of possible children of potential class members. And as 
of today, we have provided seven lists to the ACLU comprising 
989 possible children of potential class members. The judge has 
given the Government until October 25th to provide the ACLU 
information on all the possible children of potential class 
members, and at this time I anticipate we will meet his 
deadline.
    The UAC program's mission is a child welfare mission. And 
this has guided us also in our mission to reunify children, to 
place every child where we can back in their parents' arms, or 
to safely discharge that child to another family sponsor when 
that's a parent's wish or when it's in the best interest of the 
child.
    Thank you. I'll be glad to answer any questions that you 
may have for me.
    [The prepared testimony of Mr. White follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. DeGette. Thank you so much, Commander White.
    Now I am pleased to recognize Chief Modlin for 5 minutes 
for purposes of an opening statement. Chief?

                  STATEMENT OF JOHN R. MODLIN

    Mr. Modlin. Thank you, Chair DeGette, Ranking Member 
Guthrie, and members of the subcommittee. I'm honored to 
represent the men and women of the Border Patrol before you 
today. The phenomenon of unaccompanied alien children or UACs 
crossing our border illegally is relatively new in the 95-year 
history of the Border Patrol. In an unprecedented surge in 
fiscal year 2014, Border Patrol encountered more than 68,000 
UACs along the southwest border. With just a few weeks 
remaining in this fiscal year, we have already surpassed 
74,000.
    This year's record-setting UAC numbers did not happen in a 
vacuum. At the same time, Border Patrol apprehended more than 
289,000 single adults and 465,000 individuals and family units, 
surpassing total southwest border apprehensions for every year 
since 2007. This volume and mix of demographics overwhelmed 
Border Patrol capabilities like nothing we have ever seen.
    UAC is a term defined in law, and any child who's 
apprehended without a parent or legal guardian is processed by 
Border Patrol as a UAC. Additionally, Congress has assigned HHS 
as the lead agency to provide care and custody for UACs until 
sponsors can be identified. Therefore, while Border Patrol is 
the first to encounter UACs when they cross the border, our 
role is limited. Beginning when agents apprehend a UAC in the 
field, we provide transportation to a Border Patrol station, 
conduct initial processing to prepare an immigration file and a 
referral to HHS, and arrange transfer to HHS once placement is 
confirmed.
    To accomplish these steps as quickly as possible, generally 
within 72 hours, agents prioritize UAC for processing followed 
by family units and then single adults. As we saw earlier this 
summer, this process only works when both Border Patrol and HHS 
have the needed capacity. Border Patrol has no way of knowing 
how many UACs we will apprehend in any location on any day, and 
we cannot transfer UACs to the custody of any governmental or 
nongovernmental organization other than HHS. This means the 
Border Patrol has no control over when UACs come into our 
custody or how quickly they transfer out. Therefore, we are 
incredibly reliant on the capacity of HHS.
    On May 1st, HHS asked Congress for 2.8 billion in emergency 
supplemental funding because they could not maintain the level 
of shelter space needed. They announced they would be cutting 
services to prioritize remaining funds for basic care. Also in 
May, Border Patrol saw the highest month of UAC apprehensions 
in our history. Combined, Border Patrol's rapid increase in 
apprehensions and HHS's funding challenges resulted in UACs 
remaining in our custody far longer than they should. By early 
June, this backup led to as many as 2,700 UACs in Border Patrol 
custody. Additional resources didn't arrive until early July 
after Congress passed the supplemental. Now, with HHS fully 
funded and apprehensions on the decline, we are down to only 
100 to 200 UACs in our custody, and we're generally 
transferring them to HHS within 24 to 30 hours.
    All of us here today agree that a Border Patrol station is 
not an appropriate place for a child. For the limited time 
they're in our custody, our processing facilities are set up 
only to meet the basic necessities of food, water, and shelter. 
Available space is challenged by the need to safely hold 
children apart from unrelated adults and appropriately grouped 
by age and gender. The best thing we can do for these children 
is to expedite their transfer to the kind of comprehensive care 
and services that HHS is set up to provide.
    All of what I've described speaks only to the treatment and 
care of children once they are in our custody of the U.S. 
During interviews, agents are often told horror stories from 
the journey. Border Patrol sees the cruelty of smugglers 
firsthand. Agents have rescued more than 550 children so far 
this year. We need to focus more on how to discourage parents 
from sending their children on this dangerous journey.
    The unique treatment of UACs under our laws, particularly 
those from noncontiguous countries, is currently being 
interpreted as guaranteed admission if a child crosses the 
border before their 18th birthday. Smugglers are capitalizing 
on this perception, even using it as a tactic. Just 2 weeks 
ago, agents identified two Mexican adult males who posed as 
Guatemalan teenagers to avoid detention. One man admitted 
outright that the smugglers told him this would ensure his 
release into the U.S. A few days later, the diligent work of 
our agents led to the identification of a 23-year-old 
Bangladeshi man posing as a UAC. This trend is concerning.
    In total, more than 316,000 children have been apprehended 
along the southwest border either as UACs or as part of family 
units this year. More parents are being convinced by smugglers 
to bring or send their children on this dangerous journey under 
the belief that children and anyone with children will be 
released into the U.S. under our laws.
    While additional funding for temporary facilities, 
consumables, and medical support have improved our ability to 
respond to this crisis, there is simply no substitute for 
congressional action to address these pull factors in our 
immigration framework. I thank you for your time, and I look 
forward to your questions.
    [The prepared testimony of Mr. Modlin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Ms. DeGette. Thank you so much, Chief Modlin, and thanks to 
the entire panel for your testimony. The Chair now recognizes 
herself for purposes of questioning for 5 minutes.
    During our February hearing on family separations, we heard 
from child welfare experts about the decades of research 
showing that family separations lead to toxic stress and result 
in long-term traumatic consequences. And in fact, Ms. Maxwell, 
your investigation seemed to confirm our worst fears about the 
harms that this cruel separation policy had on the children.
    According to the program directors and mental health 
clinicians who cared for the separated children, these children 
exhibited more fear, feelings of abandonment, and post-
traumatic stress than children who were not separated. Is that 
correct?
    Ms. Maxwell. That's correct.
    Ms. DeGette. And you also found that the children who--you 
found children who believed their parents who abandoned them 
were angry and confused. Some children expressed feelings of 
fear or guilt and even became concerned for their parents' 
welfare, and some children expressed acute grief that caused 
them to cry inconsolably. Is that correct?
    Ms. Maxwell. That's what we heard from the mental health 
clinicians that took care of these children, yes.
    Ms. DeGette. Now one program director told you that--and 
several of us talked about it--a 7- or 8-year-old boy who was 
separated from his father without any explanation was under the 
delusion that his father had been killed, and he also thought 
that he would be killed. The child had to receive emergency 
psychiatric care to address his mental health needs. Is that 
correct?
    Ms. Maxwell. Yes, that's what we heard.
    Ms. DeGette. And one medical director told you how physical 
symptoms felt by separated children are manifestations of how--
other psychological pain, and separated children would often 
say their chest hurt when in fact they were actually medically 
fine. And they said--as Congressman Kennedy said--they said, 
``Every heartbeat hurts,'' and, ``I can't feel my heart.'' Is 
that correct?
    Ms. Maxwell. Again, that is what we heard from the staff 
that treated the children, yes.
    Ms. DeGette. Now, Commander White, in February, you told us 
that you had raised concerns with HHS leadership about what a 
family separation policy would mean for children in the 
capacity of the program. And some of the documents that we got 
from HHS show that, while this was all going on, you were 
increasingly raising the alarm about separations within HHS.
    So I want to just make a guess here that you are not really 
surprised about some of these findings in the IG's report about 
the reactions of the children.
    Mr. White. The findings in HHS OIG's report are absolutely 
consistent with what all the best available evidence and 
science would tell us that we should anticipate when children 
experience the traumatic event of separation from parents. 
Unfortunately, we have extensive scientific research that would 
allow us to know what we would expect to see. The consequence 
of this for the child's health and behavioral health are 
severe. The risks are profound, and the effects are often 
lifelong.
    Ms. DeGette. So that was what I wanted to follow up with 
you, is we heard from the experts back before and now from Ms. 
Maxwell about the immediate manifestations. But in your 
professional experience, what is the prognosis, the lifelong 
prognosis for these kids?
    Mr. White. The prognosis for each child will be very 
different.
    Ms. DeGette. Obviously.
    Mr. White. However, what we know about the particular 
trauma of prolonged separation of a child from a parent is that 
children both are at lifetime risk for trauma-related mental 
health problems and also a whole set of toxic stress-created 
effects that can have lifetime effects on them cognitively, in 
terms of their cardiac health. Overall, the consequences for 
many of these children, even if they are able to receive robust 
clinical services, will be quite severe. And this speaks to the 
harm that is involved when you have separation of children 
except strictly for cause.
    Ms. DeGette. Thank you.
    Chief Modlin, I was glad to hear that the amount of time 
that it is taking to transfer the children from CBP to ORR has 
decreased now, but something that I talked to several people 
about over the summer is what kind of guidance the Border 
Patrol was being given when they are taking these children into 
custody before they can be transferred.
    Has there been a coordination between CBP and ORR about the 
minimum conditions that need to be given to the children?
    Mr. Modlin. Sure. I'm a little unclear on the question. Is 
the question about the guidance given at the separation, or 
whatever's the coordination between CBP and HHS?
    Ms. DeGette. Well, my time has expired so I will explore 
this later. But this is what I am just shocked by is the 
report, the reports that I saw that I mentioned in my opening 
statement about children wearing dirty diapers, about them not 
getting showers or cleanliness, about 6- and 7-year-olds having 
to take care of infants and toddlers.
    And what I am just wondering is, because of the different 
agencies that we have got, if CBP didn't get guidance from ORR 
about the standards that you have to have for children.
    So my time has expired, but I will ask you more about that 
later. I will now recognize the ranking member, Mr. Guthrie, 
for 5 minutes.
    Mr. Guthrie. Thank you, Madam Chair, for the recognition, 
and I will start.
    Commander White, you were before this subcommittee last 
February. One of the issues that you discussed at the hearing 
was whether HHS receives adequate information from CBP when a 
child is separated from a parent or legal guardian. Is HHS now 
receiving sufficient information from CBP when a child is 
separated, and what steps is ORR taking from a policy or 
technology perspective to ensure ORR is receiving sufficient 
information?
    Mr. White. Respectfully, Congressman, I'll defer to Mr. 
Hayes----
    Mr. Guthrie. OK.
    Mr. White [continuing]. Since he currently directs ORR and 
I don't work there anymore.
    Mr. Hayes. Thank you, Commander.
    Yes, Congressman. We do have a specific team now inside of 
the Office of Refugee Resettlement with both Public Health 
Service officers that are inside of ORR as well as career, 
senior career officials that track very closely the number of 
separations that we have since June 27th after the court 
injunction last year. These are separations for cause. We get 
updates every couple of weeks, and we do have a very close 
monitoring of this. And, you know, there are questions that our 
intakes team will go back and forth with at times with CBP to 
get additional information, but the information we are 
receiving from CBP is allowing us to keep a close track of this 
record, and we are.
    Mr. Guthrie. Thank you. And do you--so, Director Hayes as 
well, do you believe there is a need for Congress to clarify 
when it is and isn't OK to separate a child? Are ORR's 
sponsors' evaluation policies and procedures an appropriate 
guide for CBP agents to determine when to separate a child, and 
would these same policies and procedures be a good guide for 
legislation to clarify the issue?
    Mr. Hayes. Yes. I would answer that question in two ways, 
Congressman. I think some additional clarity or clear 
boundaries or guardrails as Ann Maxwell suggested would be 
wise, but this also gets into the area of law enforcement, and 
I would defer to my colleagues at CBP on that.
    Mr. Guthrie. Do you think that Congress should clarify when 
it is appropriate for you to separate a child?
    Mr. Hayes. Sir, the times that children are separated right 
now, which has existed throughout my 24 years in the Border 
Patrol, are guided by the results of the Ms. L case. So we're 
already following the outcome of that case, sir.
    Mr. Guthrie. My understanding under the zero-tolerance 
policy, that was legal to do in the law. That was zero 
tolerance was--we were enforcing the law without prosecutorial 
discretion, so Congress could clarify that you can't separate a 
child from a parent or legal guardian if the infraction is 
merely an immigration violation.
    Mr. Modlin. Yes, sir.
    Mr. Guthrie. Congress could clarify that. But right now, 
you can do that under the law. Not that you are doing it, but 
you can do that under the law.
    Mr. Modlin. Yes, sir. As I'm sure you're aware that the 
zero-tolerance prosecution initiative was to prosecute everyone 
that crossed the border illegally for a violation of 8 U.S.C. 
1325.
    Mr. Guthrie. Right.
    Mr. Modlin. After the executive order on maintaining family 
unity, those processes were stopped, and now we follow the 
guidance of the Ms. L litigation.
    Mr. Guthrie. Right. And I won't--you don't have to add, but 
Congress could clarify, that is my point. So, Chief Modlin, 
this year we have seen a record number of migrants apprehended 
at the southwest border. The system was completely unprepared 
to handle this. How did CBP work with HHS at the height of this 
crisis to move children out of CBP facilities into ORR 
facilities as quickly as possible?
    Mr. Modlin. So what I would first like to say, sir, is that 
the men and women of the Border Patrol are professional and 
compassionate. We follow the guidelines that are set forth in 
our TEDS policy that's been spoken about many times in these 
hearings, the Flores litigation, TVPRA, PREA. In addition to 
that, at the height of this crisis, our communication with HHS, 
as I'm sure you're aware, is always difficult. As a law 
enforcement agency communicating with a non-law-enforcement 
agency, our systems can't speak directly to each other for many 
reasons, that being one of them.
    But what it was, we put procedures in place to get as much 
of the pertinent information that we could to HHS while 
preventing the law-enforcement-sensitive information from going 
forward, and at the same time not receiving information from 
them that they wouldn't want to go to a law enforcement agency.
    Mr. Guthrie. This may be more for Director Hayes. But, 
Chief Modlin, because you brought it up, Congress spent I guess 
from sometime early--I don't know the exact dates--early May to 
right before the 4th of July break, the administration begging 
for a supplemental funding bill because of the crisis at the 
border.
    You said that you have had relief, Chief Modlin, because of 
the supplemental. We wasted about 2 months arguing for I don't 
know what about getting a bill to the floor to help you out. So 
how has that improved? What issues did that cause and how has 
that improved since you have had it passed? And Congress has 
been late getting it to you.
    Mr. Modlin. Yes, sir, Congressman. So what you say is 
correct. There was a delay in getting us the additional 
supplemental funding that we requested. I don't remember the 
exact timeline, but there was a period where we entered into a 
deficiency.
    Mr. Guthrie. At least 6 weeks.
    Mr. Modlin. Yes. There was a period where we entered into a 
deficiency, meaning we knew we would not make it to the end of 
the fiscal year with our current appropriation. That absolutely 
created a potential limitation on some services, created a lot 
of uncertainty in the program and across our grantees, many of 
which are, you know, very small, not-for-profit facilities and 
programs, I know, that don't have a lot of resources other than 
the grants that we give them to care for these children. So, 
once we got those resources, it absolutely brought certainty 
and you gave us the additional resources we needed.
    Mr. Guthrie. Thanks. My time has expired----
    Mr. Modlin. Yes.
    Mr. Guthrie [continuing]. And I yield back. Thank you.
    Ms. DeGette. The Chair now recognizes the gentleman from 
Massachusetts, Mr. Kennedy, for 5 minutes.
    Mr. Kennedy. Thank you, Madam Chair.
    Chief Modlin, just to begin with you, you said that there 
was challenges getting your systems, because you are a law 
enforcement agency, to interact with HHS. Is that right?
    Mr. Modlin. Yes, sir.
    Mr. Kennedy. Do your systems include a telephone?
    Mr. Modlin. I'm sorry?
    Mr. Kennedy. Do your systems include a telephone?
    Mr. Modlin. Yes, telephones are used to contact that 
agency, sir. What cannot----
    Mr. Kennedy. And how about email?
    Mr. Modlin. What cannot pass back and forth is law-
enforcement-sensitive information. So IT solutions that are 
normally a solution between non-law-enforcement entities can't 
be used----
    Mr. Kennedy. Understood, sir. But that could be perhaps a 
telephone call saying, ``Hey, we have a crisis. This needs to 
stop. This needs to change.'' Did those conversations happen?
    Mr. Modlin. Absolutely, sir. They happen between the 
agency. They happen from our leadership to Congress. They 
happen from our leadership to the press. Absolutely, those 
conversations took place, sir.
    Mr. Kennedy. Well, I don't believe that is what evidence 
has indicated from prior testimony here, from prior hearings, 
but we will get back to that in a second.
    Ms. Maxwell, I would like to talk to you more about the 
impact of the 2018 family separation policy on ORR's ability to 
care for children in their custody. Your report found that ORR 
care providers found it particularly challenging to provide 
age-appropriate mental health services for the very young and 
the many very young children it had to care for because of the 
forced separation policy by this administration. Ms. Maxwell, 
is that correct?
    Ms. Maxwell. That's correct, what we heard.
    Mr. Kennedy. Ms. Maxwell, in fact you found in your report 
that the number of young children which you defined as 12 and 
younger requiring ORR care increased sharply in May of 2018 
when DHS formally began implementing a zero-tolerance policy 
that led to family separation. Is that correct?
    Ms. Maxwell. That's correct.
    Mr. Kennedy. In fact, your report notes that ``faced with a 
sudden and dramatic increase in young children, staff reported 
feeling challenged to care for children who presented different 
needs from the teenagers that they typically served.'' Is that 
correct?
    Ms. Maxwell. Indeed, it is.
    Mr. Kennedy. Ms. Maxwell, briefly, what were some of those 
challenges?
    Ms. Maxwell. Well, I think there's two things to keep in 
mind when we think about the increase in the younger children 
in ORR population. The first, as you mentioned, is the dramatic 
increase. We were looking at over 164 percent increase from 
April to May of the 6- to 12-year-olds, and 80 percent from 
April to May for the 0 to 5. So just the dramatic and sudden 
increase was a challenge in and of itself.
    And then of course the younger children presented different 
needs. As I mentioned, they have shorter attention spans, they 
need more supervision, and they can't always communicate. So 
the normal methods, the modalities of treatment are different 
for a younger population than for the teenagers the facilities 
are used to treating.
    Mr. Kennedy. And, Ms. Maxwell, you--to quote you on--excuse 
me. You quoted an ORR program director in your report who said, 
``A 7- or 8-year-old boy was separated from his father without 
any explanation as to why the separation occurred. The child 
was under the delusion that his father had been killed and 
believed that he would also be killed. This child ultimately 
required emergency psychiatric care to address his mental 
health distress.''
    Ms. Maxwell, is it common for separated children to face 
serious mental health issues?
    Ms. Maxwell. We heard that from the staff that treat them 
that they were more difficult and more challenging to treat 
because of the separation than children who weren't separated.
    Mr. Kennedy. And, Commander White, this is your area of 
expertise. What kind of challenges did the separations pose to 
the providers who had to care for those children?
    Mr. White. So the separated children pose really sort of 
multiple problems for program providers, some of which are 
merely capacitation issues. But to focus--if I understand your 
question--focus narrowly on the additional clinical 
requirements, while the ORR program providers are trauma-
informed programs, the level of trauma and the type of trauma 
experienced by unaccompanied children really is dwarfed by the 
reality of separated children.
    Separated children's needs are very different in four 
important ways. First, their trauma is uniformly recent. 
Second, it is currently ongoing, it is not a past event. That 
separation is happening right now in the moment. Third, it 
involves a disruption of family systems that are very different 
from what we see from unaccompanied children. And third and 
most importantly, it is very difficult for the child to 
distinguish that the people there, such as the clinician in the 
shelter, are not part of the separation process. They see us as 
one government and one entity, so their ability to establish 
therapeutic rapport and to benefit from clinical intervention 
is much less. Separated children cannot be served effectively 
in an ORR or UAC program setting.
    Mr. Kennedy. Commander, if I remember your testimony from 
your prior appearance here, you indicated that--did you get 
advanced notice of a family separation policy before you 
started seeing an increase in separated children?
    Mr. White. We did not receive any notice of a policy prior 
to its announcement on television. Discussions----
    Mr. Kennedy. Which was after the policy was in place?
    Mr. White. Correct. Discussions of possible future policy 
options which would include separation began in February of 
2017. We began to observe significant, or essentially a tenfold 
increase in separation over historic norms beginning in July of 
2017.
    Mr. Kennedy. And presumably your phones and emails were 
working at that point too. You could have received a phone call 
from anybody within the administration announcing this policy 
change?
    Mr. White. At the field level, coordination between ORR's 
intakes desk and CBP border stations is an everyday process and 
is very robust.
    Mr. Kennedy. Yield back.
    Ms. DeGette. Commander, just to clarify, during those 
conversations about a potential separation policy in 2017, you 
continually raised the red flag that this would be detrimental 
to the children. Isn't that correct?
    Mr. White. My consistent recommendation and that of the 
entire ORR career team was that separation of children from 
family units and their designation as UAC would pose an 
unacceptable danger to the child and, moreover, would pose a 
set of capacity problems that would overwhelm the program 
operationally.
    Ms. DeGette. Thank you. The Chair now recognizes the 
ranking member of the full committee, Mr. Walden, for 5 
minutes.
    Mr. Walden. Thank you, Madam Chair, and thanks again for 
having this hearing. And once again, I want to be unequivocal 
too: None of us supported this child separation policy. We 
agree with your leadership and that of your career team on this 
matter.
    And Madam Chair, thanks again for having this hearing. I am 
sorry, I had to step upstairs. They are having one on 
pharmaceutical drugs. And as I said up there and I will say 
here before I get into this issue, I beg of the majority to 
share with us the legislation that is going to completely 
rewrite pharmaceutical law in America. We have just been told 
there is a hearing already scheduled for next Wednesday. There 
is no legislative text, and we have been completely excluded 
from the process. It has all been written in the Speaker's 
office.
    And our committee has a proud and thorough tradition of 
working together on these issues. And I am----
    Ms. DeGette. I would certainly give it to you if I had 
written it, don't worry.
    Mr. Walden. And I know you would. That is because I know 
the work you have done on Cures in a bipartisan way and on 
CREATES and other things. And this doesn't have to be this way. 
We have a great tradition of working together. We have a lot of 
good brains on both sides of the committee. This is a common 
issue we need to tackle like this one is, and so I am deeply 
disappointed. We will maybe get one witness next Wednesday and 
no time to prepare, no view of the legislative text. Thank you.
    Now, let me get on to this. When I was down in Yuma, Chief 
Modlin, I was--we looked at the facility. Your team, by the 
way, was terrific. Anything I asked they answered. They didn't 
try and stop me from seeing anything. By the way, we had 
followed the rules, planned ahead of time, worked with your 
folks. They were terrific. And I want to tell you that they 
were very accommodating and did a great job.
    But what they did tell me that was really a disturbing 
piece of this puzzle was about the challenges they faced in 
identifying false families. False families. And that they had 
encountered not a lot, not a lot, but enough adults who were 
pretending to be the parent of a minor child in hopes of being 
released into the United States. One agent told us about a 
father who was apprehended with an infant child that he claimed 
to be his. And while the Border Patrol agents strongly 
suspected he was not actually the father, they had no way to 
prove this.
    Another agent told me about an ongoing prosecution where 
children were paired with adults--and this is important for our 
committee to hear--paired with adults multiple times, same kids 
multiple times, to create false family units. And after the 
purported family unit entered the United States, was 
apprehended and released, the child was sent back out of the 
country and made the journey over again.
    So my question is, how frequently do CBP patrol agents 
encounter these types of situations--I cannot imagine the 
trauma those poor children go through--where an adult claims to 
be the parent of a minor but isn't? How difficult is it for you 
and your team to ferret these traffickers, I will call them, 
these abusers, which is what they are, and my God, what happens 
to those kids? Can you enlighten us, because your team brought 
this to my attention.
    Mr. Modlin. Absolutely. Thank you, sir, for the question. 
What I can say is, to your point, it is very difficult to 
discern that, especially if you can put yourself in the 
position of the Border Patrol agents in those crowded 
facilities during that time, during the height of this crisis. 
What I can tell you is that the diligent work of the men and 
women of the Border Patrol, their attention to detail, their 
caring for these children, they recognize when things aren't 
right between what's purported to be a family member and a 
child. They notice things that don't occur in a normal familial 
situation. To date we have identified more than 6,100 
individuals that have made fraudulent claims as to being a 
family member in order to gain the benefit that you speak of.
    Mr. Walden. Six thousand one hundred individuals?
    Mr. Modlin. Over 6,100, sir. Yes. And that's just what the 
Border Patrol has found, as I'm sure you're aware that ICE HSI 
would be glad to talk to. They investigate these same claims as 
well and their numbers would be apart from the numbers that I--
--
    Mr. Walden. You said ICE investigates these claims?
    Mr. Modlin. ICE HSI. Yes, sir.
    Mr. Walden. All right, because there are members of this 
body that want to eliminate the funding for ICE and wipe them 
out, so they would not be available to investigate this kind of 
human trafficking. That is my own statement. You don't have to 
comment on that.
    But 6,100. So how often are we seeing this recycling of the 
same kids where they are being abused and used and sent back 
and then they----
    Mr. Modlin. So it's a daily occurrence, sir. What I would 
say to your earlier comment is that, without the abilities of 
ICE to then further investigate these claims and find where the 
kids are being recycled as you're talking about, where it is 
the children are being used as nothing more than a commodity in 
this, and this of course goes to the interior of the country to 
locations where the cartels and these TCOs are using these kids 
over and over. ICE is critical for that. Without ICE, we would 
never be able to investigate and then prosecute those people.
    Mr. Walden. All right, my time has expired. Thank you, 
Madam Chair.
    Ms. DeGette. The Chair now recognizes the gentleman from 
California, Mr. Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you very much. As a father and a physician 
with training in humanitarian aid, I am outraged not only by 
the inhumane family separation policies that derive from the 
zero-tolerance policies, but the conditions that affect the 
mental health of migrant children while in the custody of our 
Federal Government. We have been talking and sounding the alarm 
before this report came out about toxic stress and how those 
extreme conditions without an infant's, a toddler's, a child's 
ability to be consoled by their parent aggravates this and will 
have permanent damage not only to their ability to relate to 
others, but also in a physical form with diabetes, cardiac 
problems, and other ailments, and that is no condition that we 
want any child of ours or any of our neighbors to experience. 
And so, let me get to some specific scenarios.
    Commander White, what does lack of sleep do to mental 
health, because this is what this report is focused on, is the 
mental health of these children. What does lack of sleep do to 
mental health of an individual?
    Mr. White. So, as you know, Dr. Ruiz, in both children, 
adolescents, and adults, lack of sleep both exacerbates 
behavioral health conditions and is a symptom of many 
behavioral health conditions.
    Mr. Ruiz. An extreme lack of sleep can even lead to 
hallucinations.
    Mr. White. Certainly.
    Mr. Ruiz. And other psychoses, correct?
    Mr. White. Certainly.
    Mr. Ruiz. OK, so now what if you get a child who has 
experienced traumatic events and you keep them in a freezing 
temperature, about 56 degrees Fahrenheit, the lights always on, 
OK, constantly interrupted with noise during the night, lay 
them on a hard concrete floor in a room with these lights 
always on in a crowded quarter, what would that do to a child's 
mental health?
    Mr. White. So that would potentially be deleterious to a 
child's mental health. But to be clear, those conditions are 
nowhere present in any ORR facility.
    Mr. Ruiz. Correct. But they are at CBP, and I have 
witnessed them. And this is an issue that we hear reports from 
children from many CBP facilities.
    So let me ask you, Chief Modlin, is it a policy to keep a 
room at that freezing temperature? Is it a policy intentionally 
that you are keeping the lights 24/7? Is it a policy that you 
do routine spontaneous checks to wake up children who are 
laying on a crowded floor in close quarters, is it a policy 
from CBP? Is it intentional?
    Mr. Modlin. Doctor, I'm unaware of any freezing rooms. I 
can tell you----
    Mr. Ruiz. I have been there. I have felt them in New 
Mexico, and I have heard reports from Yuma and El Centro.
    Mr. Modlin. Doctor, what I can tell you is that----
    Mr. Ruiz. Is it--just answer my--is it a policy? Are you 
intentionally doing that? If it is not a policy, then would it 
be simple enough to make some changes?
    Mr. Modlin. Temperature is in accordance with the Flores 
Settlement, sir.
    Mr. Ruiz. OK. Well, they are 56 degrees Fahrenheit, and 
they are freezing. Is it a policy to keep the lights on all 
night and interrupt their sleep?
    Mr. Modlin. Lights being on, sir, are a result of PREA, the 
Prison Rape Act, to avoid----
    Mr. Ruiz. OK, so you need legislative changes to fix that, 
or can that be done administratively for the best interest of 
the children? Because the conditions right now that they are 
experiencing is promulgating and causing more harm to these 
children. Let me move on to another question.
    Director Hayes, is it in the best interest of a child to be 
detained in large facilities for long periods of time, or is it 
in the best interest to place them in a more individualistic 
approach to address their mental health care through foster 
homes and small group nonprofits?
    Mr. Hayes. So, Congressman, the desire of ORR in the best 
interest of child welfare concerns would be to have more 
smaller and medium-sized shelters and foster----
    Mr. Ruiz. OK, so then why are you proposing to lease a 
large space that would warehouse many children in the Inland 
Empire in my region where it is 74,000 to 91,000 square feet to 
house and warehouse over 400 kids?
    Mr. Hayes. So, sir, you are referencing the efforts that 
were underway right now with the----
    Mr. Ruiz. In the Inland Empire, you purposely are right now 
looking to house children and lease this for 17 years. And let 
me remind you that the border supplemental gave you $2.88 
billion to the Office of Refugee Resettlement. That same border 
supplemental required the Department of Health and Human 
Services, or HHS, to ``prioritize use of community-based 
residential care including long-term and transitional foster 
care in small group homes and shelter care other than large-
scale institutional shelter facilities to house unaccompanied 
alien children in its custody.''
    Why are you defying the law by searching for a 74- to 
91,000 square foot warehouse facility to keep unaccompanied 
children in the Inland Empire?
    Mr. Hayes. All right, let me be clear, Congressman. We are 
looking at about seven or eight different locations around the 
country. And I want to be crystal clear, sir.
    Mr. Ruiz. I don't care where they are at.
    Mr. Hayes. May I answer the question?
    Mr. Ruiz. As long as they are not large warehouse 
facilities.
    Mr. Hayes. May I answer the question, Chairwoman?
    OK. We're--I just want to be crystal clear for this 
committee. We are looking to expand our permanent State license 
network, and the cities that you mentioned in your area as well 
as across the country we are looking to find small to medium-
sized shelters that will be State-licensed by the respective 
States and towns we reside in.
    Mr. Ruiz. Yes, but housing them in intentionally 17 years--
--
    Ms. DeGette. The gentleman's time has expired.
    Mr. Ruiz [continuing]. Is not in the best interest of the 
children.
    Ms. DeGette. The gentleman's time has expired. The Chair 
now recognizes Mr. Burgess for 5 minutes.
    Mr. Burgess. Thank you.
    And, Mr. Hayes, that is an important point, because Chief 
Modlin told us in his testimony that they are entirely--they 
don't have control over their population. The people that walk 
in and turn themselves in to Customs and Border Protection, 
they are obligated to process. They cannot send someone out who 
is under the age of 18 until you have an open bed for them.
    Mr. Hayes. That is correct, sir. And I just want to 
clarify. We are seeking to increase our foster care network. We 
are seeking to increase specialty-type shelters. We are seeking 
to increase State-licensed permanent network, and in order to 
timely accept these children when referred to us from DHS, we 
absolutely need the flexibility in both large, special and--I'm 
sorry, not large--small, medium, and specialty-type shelters in 
order to timely receive these children. That is our goal.
    Mr. Burgess. Right, because you have got to relieve the 
burden, the bottleneck that is occurring in Customs and Border 
Protection. They are not set up for the long term, anything 
longer than the very, very acute care of a child during the 
time that the processing occurs that Congress has determined 
that Customs and Border Protection shall provide.
    Now, there is some talk about maybe we don't need a law 
that prevents someone from coming into this country without 
authorization. I suppose that is a discussion that we are going 
to have during a presidential election year. But until Congress 
changes the law, Chief, you have got to follow the law, right?
    Mr. Modlin. Yes, absolutely, Congressman.
    Mr. Burgess. And, really, one of the tragic situations of 
May and June of this year was you were caught. Mr. Hayes 
doesn't have any beds. Cartels are bringing people across the 
river in places that I visited in south Texas, the lower Rio 
Grande Valley in particular. They don't call you and say, 
``Hey, you have some incoming,'' you just have to be prepared 
to accept them, correct, at McAllen and Weslaco and all of the 
Custom Border Protection facilities?
     Mr. Modlin. Yes, sir.
    Mr. Burgess. And if they are out of space and you are out 
of money for disposables and things that you might need to take 
care of people, you are in a world of hurt, right?
    Mr. Modlin. Yes, sir. If I could, in fact when the crisis 
was ramping up, we were expending our operational funds on 
those consumables, on diapers, on food, all those things that 
we were not prepared to deal with. And I believe it was your 
statement earlier about unclear on the time between the request 
and the appropriation, that was 57 days, 57 days at the height 
of this crisis that our agents were bringing in diapers from 
home. They were buying toys for these children. They were 
bringing clothes to give to these children. That's what the 
compassionate and professional men and women of the U.S. Border 
Patrol did on their own while we were waiting for action so 
that the capacity at HHS and further upstream could open up so 
that we could release all these subjects from our custody and 
get them to where they need to be.
    Mr. Burgess. And just for the record, I have made multiple 
trips over the past 12 or 14 months. I have been to McAllen two 
or three times. I have been to Brownsville and Casa Padre. I 
went to Tornillo twice, was at Clint earlier this summer right 
after you got the supplemental funding.
    At the station that I guess is called Ursula in Mission, 
Texas, I was there right at the end of May when you were at the 
height of the influx and Mr. Hayes was unable to take the 
number of people that you had prepared to send them, and it was 
tough. I mean, it was tough sledding. It was hard on your men 
and women who work in Customs and Border Protection. Most of 
them have children themselves.
    It was--you could see it in the eyes of Chief Garza when I 
was down there that this is hard on them and they wanted 
Congress to do something. And you are caught, we won't help? 
And we are not allowed to secure the border? We won't provide 
you any additional funding and, guess what, it gets bad in a 
big hurry.
    I do just want to reference one thing. And, Commander 
White, I respect the fact that there is a difference between a 
child who has to go through acute separation, but I will tell 
you in 2014 visiting the Weslaco station down at the lower Rio 
Grande Valley sector and the time that the surge of 
unaccompanied minors was at one of its heights and seeing the 
young boys that I saw sitting on cement benches, they weren't 
punching each other. They weren't pulling each other's hair. 
They were sitting, staring straight ahead.
    Now, these were not children who had been there for a 
while. These were children who had just arrived that day. And 
it told me that the trauma that they endured on the trip up to 
the United States had to have been significant. They looked 
like victims of child abuse. I think that there is significant 
danger to children in making that journey.
    And, Chief Modlin, you did an excellent job in your 
testimony. I encourage everybody to read that about the 
problems that are extant in the fact that we have legislation 
and court decrees that do not make sense and we need to 
straighten it out. And we need to do it, you can't do it.
    Ms. DeGette. The gentleman's time is expired.
    Mr. Burgess. It can't be done administratively.
    I yield back.
    Ms. DeGette. The Chair now recognizes the gentlelady from 
New Hampshire, Ms. Kuster, for 5 minutes.
    Ms. Kuster. Thank you very much. And I too have been to 
these facilities at the border. And these children are 
traumatized, and all the more reason to treat them with respect 
and not engage in furthering their trauma. So I think this is 
an incredibly important topic for us to be considering at this 
point because these children are in our custody and life is 
getting much worse for them with the trauma of separation. I 
was there with the mothers whose nursing babies had been ripped 
from their arms. So we have got to do better, and that is why 
Congress has acted to give you the resources that you need.
    I want to focus in on a very specific issue, if I could, 
which is with regard to sexual assault in the custody of our 
Government. And following up on this report, which is 
devastating--I recommend it to everyone. Thank God we have an 
Inspector General. Thank God we have courts that are creating 
standards for people in our custody, particularly young 
children.
    But in July of this year, NBC reported allegations of 
physical and sexual abuse at the hands of CBP officers. Now, 
Chief Modlin, you have standards for the prevention, detection, 
and response to sexual assault and in confinement, and that 
requires CBP to publish annual reports on the effectiveness of 
your own sexual assault prevention strategies. But I am 
wondering why that report has not been filed. It is now 11 
months after the end of the fiscal year 2018 and CBP has failed 
to publish that report.
    Mr. Modlin. Ma'am, thanks for the question. What I can tell 
you is that here I represent the United States Border Patrol, 
not CBP at large, but what I'm more than happy to do is go back 
to CBP for you and get the status of that report and have that 
reported back to you.
    Ms. Kuster. Because that report is well overdue to 
Congress. And I think the actions reflect the priorities and 
the concerns, and combating sexual violence is a priority of 
mine and I think one that we need to take very seriously. So I 
reviewed CBP's most recently published report and found in 
fiscal year 2017 seven allegations of sexual abuse. If you 
could take back as well to the people in the CBP, there are now 
23 complaints of sexual abuse in fiscal year 2018, and we want 
to make sure that that is thoroughly investigated and reported.
    Mr. Modlin. Yes, ma'am. We absolutely will. And as I'm sure 
you know, none of that would comport to our standards and what 
we expect from our agents, and we will look into that and I'll 
be happy to get those answers to you.
    Ms. Kuster. So switching gears to Director Hayes, what is 
the criteria for determining which out-of-network facilities 
are used, and what is the oversight for these facilities? And 
in particular we had a network shelter, Rolling Hills Hospital 
in Oklahoma. In May of 2017 there were serious safety 
violations, including a neglect and abuse by the staff at the 
facility, January of 2018, resulting in a patient being left 
with a fractured vertebra, broken foot, and bruising all over 
the body.
    So two questions: What is the criteria for choosing the 
facilities, and what is the oversight?
    Mr. Hayes. So, thank you, Congresswoman. First off, I just 
want to be crystal clear that any child that would be abused is 
one too many, and we have policies and procedures in place at 
the Office of Refugee Resettlement to prevent that. And in the 
unfortunate occurrence where it might, we have very strict 
reporting procedures up to the chain of command to the 
leadership of ORR.
    Ms. Kuster. And what is the oversight for monitoring the 
out-of-network facilities?
    Mr. Hayes. So, I don't have specifics on some of the out-
of-network, but I do know that we have a very--because I am not 
specifically familiar with this facility you're referencing--
but we have a very robust monitoring program that includes both 
monitoring from our headquarters in DC, onsite monitoring 
unannounced, as well as weeklong monitoring visits.
    I think what you're referencing is probably where a medical 
professional has referred a child for out-of-network care 
because the needs of that child, either mental health or 
medical help, cannot be met inside our shelter or particular 
community. And, honestly, I would not speculate why a medical 
professional chose that particular facility. I'm sure there are 
a lot of subjective reasons from a medical perspective, and I 
would not want to speak for the medical person that made that 
situation.
    Ms. Kuster. OK, switching gears again, Commander White, 
thank you. You are an American hero. You tried to issue an 
alarm when you learned that children were being separated from 
their parents. What we need to focus in on is that apparently 
that alarm was not heard, and I want to understand specifically 
where and how. Secretary Azar said that he did not know that 
children were being separated. And I want to understand, if you 
could, and very briefly I will ask the indulgence of the Chair, 
because the committee staff would like to understand what 
happened with your warning, and why wasn't it heard?
    Mr. White. So, I can only speak to the conversations that I 
was in. I elevated my concerns and those of my entire team to 
three levels above me in the hierarchy. That would be to my 
immediate supervisor, then-Director of ORR Scott Lloyd; to his 
supervisor, my agency head, then-Acting Assistant Secretary for 
the Administration for Children and Families Steven Wagner; and 
to his managerial POC on the team in the immediate Office of 
the Secretary, that was Maggie Wynne, the counselor for Human 
Services to the Secretary. So I elevated these concerns as high 
as it was possible for me to reach. I really couldn't speak to 
what conversations occurred other than those that I was in 
myself.
    Ms. DeGette. The gentlelady's time has expired. The 
gentleman from West Virginia is now recognized.
    Mr. McKinley. Thank you, Madam Chairman. I thought this 
panel was all about unaccompanied children, but you can see 
this conversation has drifted to other matters of the 
separation, the children being grasped away from their parents 
or whatever. So if we could just get back, and I appreciate, 
Commander White, you are trying to clarify the difference in 
this debate between separated children and unaccompanied 
children, because I think that is what we were supposed to be 
talking about here today.
    So, but I would like to go back to where we begin on this 
whole discussion about crisis. Several of you have talked about 
that this is a crisis at the border, so I would like to if you 
could just quickly, the four of you, it is a yes or no, in the 
past 9 months during this year 2019, has there been a crisis at 
the border?
    Ms. Maxwell?
    Ms. Maxwell. As the Inspector General for HHS, our focus is 
solely on HHS's mission, which is the Unaccompanied Alien 
Children, so----
    Mr. McKinley. It is a yes or no. Has there been a crisis at 
the border?
    Ms. Maxwell. I don't have any immigration expertise in 
which to make that judgment.
    Mr. McKinley. OK, you ducked it.
    Mr. Hayes?
    Mr. Hayes. Yes, Congressman. There's absolutely a crisis at 
the southern border.
    Mr. McKinley. Mr. White?
    Mr. White. Yes, Congressman. Anytime we cannot timely place 
children in custody it's a crisis.
    Mr. McKinley. Thank you.
    Chief?
    Mr. Modlin. Yes, sir. A border security and a humanitarian 
crisis at the border.
    Mr. McKinley. Well, but yet part of what we are fighting 
here in Washington, that is what shows this, the unfortunate 
divide on this is that we have other folks that don't agree 
with you, that there has not been. It is all a fabricated 
story.
    This was an article that came out in July. It said that 
this was a manufactured crisis, and even Steny Hoyer went on to 
say that there is no crisis, there has not been a crisis at the 
border. The quotes all through this, it is a made-up crisis. It 
does not exist at the border. It is a fake crisis, doesn't 
exist. That is a lie. It couldn't be further from the truth. 
There is no crisis in arrivals, they are fiction. I could on 
and on with people saying there is no--so it is no wonder we 
have had this problem dealing with, because people won't accept 
the reality of what is happening down there by trying to cover 
up for it.
    So, if I could, and then we have a problem with the 
reluctance of people, communities to talk about taking care of 
these unaccompanied minors. That the funding for--here is an 
article that came out in late July. The Democrats call for 
closures of shelters for unaccompanied minors. Not the 
separated, unaccompanied. They want to close those facilities. 
I think we have to be--then we go to the third, which is where 
the unaccompanied minors could go to other communities where 
they could be housed. But then you just came out in August, 
Washington DC says, ``Not here. We are not going to house 
unaccompanied minors in Washington, DC.''
    So this whole issue of one after another, it concerns me 
about where we are going, because if we don't expand the 
shelters, what are we supposed to do? What are you telling this 
committee? What are we supposed to do if we are not going to 
expand the shelters and we are not going to build and occupy 
facilities around the country? What are we supposed to do, turn 
these children loose? Is that what it is? Can someone give me 
some direction as to what we are supposed to do? If we can't 
build them and they can't put them in a different community, 
what are we supposed to do?
    Because--I see some hesitation on your part. Because the 
problem that could--goes to, if these kids aren't in a 
controlled environment in either Washington, DC, or wherever 
else that we have heard--some of the other communities in 
Texas--what kind of medical and psychological care will these 
kids get if they are not in our control somehow? Will they get 
it by just drifting on the streets? I need to see it. I am from 
West Virginia. I don't see this thing on an everyday basis. So 
tell me, what happens if we don't put these children in a 
shelter, where do they go? Unaccompanied minors.
    Mr. Hayes. Congressman, I see your point. And I would just 
say that I think that is why Congress moved the unaccompanied 
children program to HHS back in 2003 with the Homeland Security 
Act of 2002. And the commitment of ORR and the leadership of 
HHS is to increase our permanent network capacity so that we 
can receive these children as quick as possible and provide for 
them the care that we need as we work to get them to a sponsor. 
So that's our mission, and we would appreciate a continued 
partnership with Congress in order to move in that direction.
    Mr. McKinley. And, Mr. Hayes, you are not getting the 
support to expand the facilities and we are not getting 
communities willing to accept them. So my question--I 
understand the policy--but how do we make it work if no one is 
helping?
    Mr. Hayes. Yes. So the same ask I made yesterday of the 
Labor H Committee. I would appreciate help and support from 
Members of Congress in helping educate the communities across 
this Nation, especially here in our own backyard in DC and 
Northern Virginia, as to the critical role and child welfare 
mission that ORR has, and that the majority of the children in 
our care are indeed unaccompanied and by statute are required 
to come into our care and custody as we work to safely find 
them a sponsor while there are immigration proceedings.
    Ms. DeGette. Thank you.
    Mr. McKinley. Thank you.
    Mr. Hayes. I think there's a lot of misunderstanding about 
our program, sir, and we can have Congress help us educate the 
American public on it and the community leaders.
    Ms. DeGette. The gentleman's time has expired. The Chair 
now recognizes the gentlelady from New York, Ms. Clarke, for 5 
minutes.
    Ms. Clarke. I thank you, Madam Chairwoman and our Ranking 
Member Guthrie.
    One of the issues highlighted across multiple OIG reports 
relates to certain facilities' failures to conduct background 
checks as required by ORR policy. So, Mr. Hayes, an OIG report 
on the Tornillo influx facility that ORR was unaware--found 
that ORR was unaware that the facility was not conducting 
required background checks. While we understand that ORR policy 
now requires facilities to inform ORR of an inability to 
complete required background checks, is ORR implementing any 
other tool to ensure that each facility is conducting the 
required checks?
    Mr. Hayes. Yes, Congresswoman, we are. We've issued two 
clarifications this calendar year, one in January and again in 
March, and I believe the OIG referenced that in their report 
clarifying to our grantees the requirements for background 
checks and investigations of staff prior to coming on board to 
help care for these children.
    Ms. Clarke. And how are you following up on that? I mean, 
because clearly there is a violation of that.
    Mr. Hayes. Right, so we're continuing to follow up on that. 
And again, you know, to the conversation----
    Ms. Clarke. How?
    Mr. Hayes [continuing]. I had with Ms. Kuster we continue--
--
    Ms. Clarke. How is that being done?
    Mr. Hayes. Yes, we continue to do monitoring. We are 
increasing our monitoring team. And, again, we do monitoring 
both here from DC, desk monitoring, we do onsite, unannounced 
monitoring of our grantees as well as weeklong, very in-depth 
monitoring. We will continue this.
    Ms. Clarke. Mr. Hayes, another report noted that ORR 
granted waivers to certain noninflux facilities, allowing these 
facilities to hire employees without conducting Child 
Protective Services checks. Instead, in these cases, ORR relied 
on an employee's self-certification that the employee had a 
clean child abuse and neglect history.
    Do you believe self-certifications are an adequate 
replacement for background checks in ensuring the health and 
safety of children?
    Mr. Hayes. I would not support self-certification. And I'll 
just point out you're referencing the CAN checks, Child Abuse 
and Neglect checks. And I think the OIG report also 
acknowledged that that is a challenge across the entire Nation 
in regards to certain facilities and the access that States and 
Federal Government have to that.
     Ms. Clarke. Well, I think you have a very specific role 
here, right. We are not talking about every other instance, 
right. We are talking specifically about a humanitarian 
challenge, right. And so my question to you is whether you 
believe self-certification is adequate given the very special 
circumstances that we find ourselves in.
    Mr. Hayes. Well, I want every single employee that works at 
our shelters that have access to children to have undergone an 
FBI background check, and I can ensure you that that is the 
practice and the policies and procedures of ORR to ensure that 
the children are in a safe environment.
    Ms. Clarke. So there is no self-certification?
    Mr. Hayes. Not that I'm aware of.
    Ms. Clarke. OK.
    Ms. Maxwell, the OIG report indicates that the hirings that 
are--over half of the ORR facilities are facing challenges in 
hiring and retaining employees, including mental health 
clinicians and youth care workers. These reports point to 
hiring issues such as difficulties finding bilingual and 
qualified candidates, retention issues due to salaries, hours, 
and competing jobs opportunities. And your report indicates 
that these hirings and retention challenges can affect 
facilities' ability to meet ORR's required staffing ratios.
    How does an inability to meet these ratios affect the 
health and safety of unaccompanied children?
    Ms. Maxwell. Thank you for that question. You are right. We 
looked at the facilities' compliance with the clinical ratios 
and found about 15 facilities were unable to meet the clinical 
ratios required by ORR in certain periods of time. And what we 
heard from the clinicians is that this results in large 
caseloads, and large caseloads certainly mean that they have 
challenges providing care that they would like to provide to 
all the children underneath their supervision.
    Ms. Clarke. It appears that the issues that we have 
discussed today span across multiple facilities. So, in your 
opinion, what should ORR do to improve its oversight of the 
facilities and their compliance?
    Ms. Maxwell. We make recommendations that ORR support the 
facilities in overcoming the challenges to hiring clinical 
professionals, screening them, as well as retaining them. And 
we also make recommendations that they think about the 
possibility of implementing maximum caseloads for these 
clinicians.
    Ms. Clarke. Mr. Hayes, do you believe that your directorate 
is capable of doing this?
    Mr. Hayes. I do, ma'am. And if I could share a few things 
of what we're working on and have already implemented at ORR? 
We have, we're working on developing an intern program with 
colleges and universities in order to place interested students 
in our facilities, in our programs.
    Ms. Clarke. With background checks?
    Mr. Hayes. I'm sorry. What, ma'am?
    Ms. Clarke. You say you want to put interns into these 
facilities.
    Mr. Hayes. No, working with colleges to identify interns 
that are working through the clinical field of education in 
order to educate them at what we do at ORR so that they might 
after postgraduate come and serve us at ORR, because again 
there's a national shortage of clinical professionals. 
Obviously, any--again, I want to reiterate, any potential staff 
person that would have access to the unaccompanied alien 
children is expected to have undergone an FBI background check.
    Ms. DeGette. The gentlelady's time has expired. The Chair 
recognizes the gentleman from Virginia----
    Ms. Clarke. I yield back, Madam Chair.
    Ms. DeGette [continuing]. Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Madam Chair.
    Mr. Hayes, is there anything else you wanted to add on 
that?
    Mr. Hayes. Yes, sir. Thank you, Congressman. I just want to 
add we're also working with additional funding for continuing 
for continuing education to our licensed clinician as a 
retention strategy. We're working to expand our presence at job 
fairs. We've partnered with the National Child Traumatic Stress 
Network to develop a webinar series on trauma in UAC. And in 
April of this year, we also hired a board-certified adolescent 
adult psychiatrist in the division of health for unaccompanied 
children inside ORR.
    Again, to the OIG report, there is an overall nationwide 
shortage of licensed mental health professionals available and 
that does, you know, present challenges, or cause challenges at 
ORR as well.
    Mr. Griffith. Continuing with you, Mr. Hayes, you know, we 
understand migration patterns are unpredictable. You previously 
testified that you are trying to expand your permanent bed 
capacity----
    Mr. Hayes. Yes, sir.
    Mr. Griffith [continuing]. To account for some of these 
fluctuations and the influx of unaccompanied children. You 
asked for some flexibility. What kind of flexibility are you 
looking for, and what do we need to do?
    Mr. Hayes. So that's a great question, Congressman. I think 
one of the key components that is often missed is that, 
whenever we want to have a State-licensed permanent shelter, 
the final say in that shelter of going online and being able to 
accept children does not lie with the Federal Government. It 
lies with the State and local communities in which those 
shelters reside.
    And so, you know, I can give a few examples where we've had 
these smaller-sized shelters like Dr. Ruiz would like to see us 
have, which we would like to have as well, but when, you know, 
but when migration patterns are, again, extremely difficult if 
not impossible to predict, we have to have flexibility, because 
any HHS ORR shelter is a better environment for an 
unaccompanied child than a Border Patrol station. I think all 
of us on the dais today would agree with that. And so, because 
those migration patterns are very difficult if not impossible 
to predict, we need to be able to have the ability to turn on 
and turn off beds as quick as possible so that we can get those 
children out of the Border Patrol stations and into the care 
that we have.
    And because I don't have the final say--and, again, your 
colleague from West Virginia highlighted the struggles we have 
in finding them right here in our own backyard in DC and 
Northern Virginia--we want to have these shelters, but if we 
have reluctance from the local and State officials in doing so, 
I'm going to have to have flexibility with some larger or 
medium-sized shelters that would be influx shelters run by the 
Federal Government.
    Mr. Griffith. And Representative McKinley did raise the 
issue about Washington, DC, and you have now mentioned it a 
couple of times. Are there other areas where communities are 
saying, ``No, we don't want to house those folks here''?
    Mr. Hayes. I know that we've received formal communication. 
I think I would probably limit my response to formal 
communication from DC and from the Northern Virginia area, 
specifically the City of Alexandria and the County of Fairfax.
    Mr. Griffith. All right. Now are you all--are folks having 
to apply to provide these shelters, or are you all going out 
and looking for existing institutions that already have some 
expertise in this?
    Mr. Hayes. So the answer is both, Congressman. Normally, a 
grantee will respond to an FOA, a Funding Opportunity 
Announcement, and, you know, we put forward, our team puts 
forward the needs that we have. You know, we have numerous 
types of shelters that I've referenced in my opening statement, 
but we are also now--and this is something that we've been 
working on--but we are now going out ourselves and attempting 
to find some buildings that we would have control over and then 
seek to find operators to come in. And that would give us more 
flexibility, and again those would be State-licensed permanent 
beds.
    And that's the one that Dr. Ruiz referenced earlier, you 
know, the area around L.A. would be a great area for us to open 
up a shelter. They have a great population there of clinical 
and social work professionals that can be bilingual that are 
the requirements of ORR. So we're absolutely doing both. We're 
seeking folks to come in and provide the full range of services 
but also finding our own buildings and then finding operators 
to simply do that, and then we would have the control over 
those buildings.
    Mr. Griffith. I appreciate that.
    I am going to switch gears a little bit and mainly going to 
ask Commander White, but maybe I am happy to get information 
from anybody. I did domestic relations work. That means child 
custody, support, et cetera, for probably 10, 11 years of my 
legal career. I ran into lots of children. I obviously 
understand the emotional traumas that can happen in all kinds 
of situations, but also in that, and you referenced in your 
oral testimony, that there was some long-term cardiac issues, 
if I understood it correctly.
    We don't have time today to go into all that, but could you 
give me some of those reports? Because even though I haven't 
represented some of these kids in a long time, it is one of 
those things that you worry about when you have done domestic 
relations work is, you know, what are the long-term prospects 
for these kids? Can you give me some reports, particularly on 
the--the emotional side I understand, but particularly on the 
cardiac or other health besides emotional health, but physical 
health issues?
    Mr. White. Absolutely, Congressman. So the body of current 
evidence around toxic stress, including the Shonkoff studies 
and the other works out of the Harvard Center on the Child, 
really does speak to the range of risks that children who 
experience sustained trauma and high levels of stress can have 
on a number of domains of lifelong health functioning. That 
would include many children in our domestic child welfare 
systems, which is where a lot of that research has been done. 
That certainly also applies to unaccompanied children who've 
often experienced extraordinary levels of traumatic exposures 
in terms of exposure to violence and poverty in home country. 
It is--those problems are generally compounded for children who 
experience separation. So, yes, sir. We'd be glad to provide 
you with that science.
    Mr. Griffith. There you go. Thank you.
    Ms. DeGette. The gentleman's time has expired. The Chair 
now recognizes the chair of the full committee, Mr. Pallone, 
for 5 minutes.
    Mr. Pallone. Thank you, Madam Chair. This past summer we 
saw the disturbing reports of the conditions at a CBP facility 
in Clint, Texas, that held large numbers of unaccompanied 
children. Toddlers reportedly had to go without diapers, young 
children had to look after infants, and visitors reported a 
stench from the lack of showers and clean clothes. CBP 
officials will explain that its facilities were never meant to 
house children and they are supposed to be quickly transferred 
to ORR so that qualified child welfare experts can provide 
appropriate care, but clearly that broke down.
    An El Paso Times article says that CBP officials were 
trying to warn ORR about the conditions at the facility. When 
talking about his conversations with ORR at the time, the 
Border Patrol agent in charge of the Clint station said, and I 
quote, ``We were desperately trying to tell them we don't have 
the cell space, the holding space, food contracts. If one of us 
is going to be over capacity, at least you have the basics. 
There is only one legal avenue for me to transfer those 
children. They absolutely have to go to ORR by law, so that was 
my only option.''
    So let me ask Mr. Hayes, how do you respond to that? CBP is 
seemingly suggesting ORR could have done more than it did to 
alleviate the situation.
    Mr. Hayes. Thank you, Congressman. So it is a true 
statement that our capacity was strained operationally this 
last spring, in May and June specifically. Starting in January 
of this year we did see an increase in referrals over the last 
calendar year, and HHS made a large number of efforts to 
increase our capacity as quick as we can. That's one of the 
flexibility options that I referenced earlier in talking with 
your colleague from Virginia that, you know, we do need to have 
that flexibility and, you know, we operated as best we could, 
again, with the limited capacity.
    But I want to be clear that there wasn't a day that went by 
that we did not both discharge hundreds of children and also 
receive hundreds of children from CBP, even during the times of 
tight capacity in May and June.
    Mr. Pallone. Well, the article I mentioned quotes another 
former Border Patrol official who said, and I quote, ``HHS and 
ORR were not holding up their end of the deal. Border Patrol 
was moving thousands, and they were moving hundreds.'' So, Mr. 
Hayes, again it sounds like the Border Patrol officials are 
saying that HHS is well aware that the volume of the children 
would be increasing but the HHS wasn't freeing up room fast 
enough by releasing the kids that had the sponsors.
    So again, how do you respond to that official who said that 
ORR was not accepting the kids fast enough?
    Mr. Hayes. Well, I would say two things. Number one, we did 
continue to accept kids every day. I'm not really sure what 
thousand kids the CBP would have been moving, because once we 
designate a child, ICE has the responsibility to bring those 
kids to us at HHS.
    And I just would say that one of the challenges that we saw 
specifically this spring, sir, was an increase in just a 
different type of child that was referred to us. We saw an 
increase in sibling groups. We saw an increase in parenting 
teens. We saw an increase in, again, the sibling groups, 
younger, where you had one teenager, one that was, you know, 
tender age, which is under 12, and that did, you know, present 
some difficulties in finding the most appropriate shelter for 
that child.
    Mr. Pallone. Well, let me ask Chief Modlin. I understand 
that CBP cannot transfer children out of its custody until ORR 
is prepared to accept them. In this instance, when did you 
realize you had a problem? Could this crisis have been avoided 
if CBP had reached out to ORR sooner?
    Mr. Modlin. Yes, sir, so you're absolutely correct. We 
cannot move the children to anyone other than HHS, and that's 
as part of TVPRA. I do believe that the Border Patrol and CBP 
as a whole sort of sounded the alarms as early and often as we 
could during this. As you're probably aware, there was quite a 
few people that insisted that there wasn't a crisis, that we 
weren't over capacity, that maybe these problems were self-
generated.
    What I do recognize absolutely is that if HHS is not funded 
and appropriated, and ICE as well, that house our family 
groups, then there's no place to put them. As I said in my 
opening statement, we're the only component in this entire 
chain that has no control over what comes into our custody.
    Mr. Pallone. Well, let me--I know we are running out time. 
But, you know, based on what you said that I know that the CBP 
facilities were not intended to house children, but are you 
going to take any steps to ensure that the children held in the 
facilities are not faced with similar conditions in the future, 
or again is the funding the problem? Is that what you are 
saying?
    Mr. Modlin. So, certainly, during the time at the height of 
the crisis, sir, the funding was absolutely the problem. If we 
ever fell short of our standards it was because we were 
overwhelmed, it wasn't because of callousness.
    Mr. Pallone. Well, what about now and the future?
    Mr. Modlin. I'm unaware of us falling short of any 
standards now, sir. Since the supplemental funding, we've had 
shower facilities brought in. We've had washers and dryers 
brought in. We've had wraparound services. We have a lot of 
things that we needed during the crisis. What I would also 
point out is that certainly this crisis is not over. We're 
still encountering numbers greater than we ever have before. 
It's certainly down from the May-June numbers, but I would just 
have everyone please keep that in mind that this is certainly 
not over, sir.
    Mr. Pallone. All right, thank you. Thank you, Madam Chair.
    Ms. DeGette. I thank the gentleman. The Chair now 
recognizes the gentlelady from Indiana, Mrs. Brooks, for 5 
minutes.
    Mrs. Brooks. Thank you, Madam Chairwoman, and thank you for 
holding this really important hearing. I want to build on and 
ask a little bit more questions about what the chairman of the 
full committee asked you about, Chief Modlin. You talked about 
the height of the crisis. And if I am not mistaken, during the 
height of the crisis CBP and ORR came to the Congress and asked 
for funding. Is that correct, and asked for help?
    Mr. Modlin. Yes, ma'am. We did.
    Mrs. Brooks. And when CBP and ORR came to Congress and told 
us that we had what you called the height of the crisis, it 
took us 6 weeks, didn't it, to get funding?
    Mr. Modlin. Yes, ma'am, 57 days actually.
    Mrs. Brooks. And what happened during those 57 days of 
lapse of funding after you came to us and said we are in crisis 
mode?
    And, Mr. Hayes, I think you mentioned that for the first 
time you were in antideficiency mode.
    Mr. Hayes. Not the first time in history. It happened in 
the early '80s at HHS, but it definitely was unprecedented at 
this time. We were in deficiency, and the Antideficiency Act 
rules and restrictions kicked in at ORR. Yes, ma'am.
    Mrs. Brooks. And we didn't do anything for 57 days, is that 
right? And so what happened? What happened with CBP and ORR 
during that period of time that we did nothing?
    Mr. Modlin. Yes, ma'am. So what happened is, we had to 
reach back into our operational funds, the funding that's meant 
to help us secure the border, and pay for these consumables 
that were being used, whether it's sanitary items, whether it's 
formula, it's baby food, it's diapers. As I've testified 
earlier, our agents purchased diapers themselves and brought 
them in. They brought in clothing from home. They did 
everything they could to alleviate as much of the crisis as 
they could while we were waiting.
    During that time, we also started to contract with standup 
soft-sided facilities that you're aware of to increase our 
capacity. The one thing we never want to do is hold people 
longer than that 72 hours, but we recognized that we were far 
over capacity. You know, our--generally our capacity on the 
southwest border is about 4,000 people. At the height of this 
we were holding 19,000 people in our facilities. So we had to 
expand where we could and use the funds, any funds that we 
could.
    Mrs. Brooks. Thank you.
    Mr. Hayes?
    Mr. Hayes. So, Congresswoman, some of the nonessential 
services in a very limited basis were affected at ORR. 
Thankfully, not to a large level because we fund our grantees 
often for months out at a time, and so the funding that 
happened before we went into deficiency did not affect those 
operations, but had it continued on it could have affected 
especially new grantees coming on, providing legal services, 
recreation, education, all things that we absolutely desire to 
provide for these children and are required to under the Flores 
Settlement Agreement.
    Mrs. Brooks. Thank you.
    Mr. Modlin, one of the concerns that I have always had is 
the health, the physical health. Not necessarily that I am not 
incredibly concerned about the mental health and the challenges 
we have with the mental health. And not only the children 
coming up and leaving home at the time and what their journey 
is like and then once they get here, but with respect to flu 
vaccines and what types of vaccines children might have when 
they come. Why are flu vaccines not provided when they are in 
CBP custody?
    And I have heard from pediatricians back home of the 
willingness to have more mobile units that might be able to 
help CBP, particularly when we have these massive influxes as 
we have experienced. What are your thoughts of having more 
mobile units of medical personnel available? Chief Modlin?
    Mr. Modlin. Yes, Congresswoman. What I would say is the 
Border Patrol's absolutely opposed to vaccinations inside our 
facilities. It is so far outside of our scope and mission that 
it's basically inconceivable to me to imagine that. We do not 
want to do anything that would increase the time that these 
vulnerable populations are in our facilities, whether that's by 
an hour, whether that's by 2 or 3 days.
    Where all this needs to take place is in the HHS facilities 
and facilities that are further down the immigration line where 
the comprehensive care and services can be coordinated. And the 
physicians at CBP agree.
    Mrs. Brooks. And, Mr. Hayes, the issues around vaccines and 
the health, physical health of the kids?
    Mr. Hayes. Yes, ma'am. So every time a child arrives at one 
of our shelters, within 2 business days they're required to 
undergo a full medical examination. We call it an IME, initial 
medical exam or examination. And according to the American 
Academy of Pediatrics, we provide all the vaccinations as age-
appropriate to each child, and for any child that is 6 months 
of age or older we also give them the flu vaccine. Again, each 
doctor has discretion in regards to that, though.
    Mrs. Brooks. Thank you.
    And, Madam Chairwoman, I would just like to share that I 
have also visited the Texas border. I visited an ORR facility 
in Bristow, Virginia. I visited a new service coming on board 
in Indianapolis. And one of the things that I heard, which is 
very troubling, is that part of the reason children are 
transported in the middle of the night--which people may not 
realize they are being transported in the middle of the night--
it is because our citizens are attacking and chastising ICE and 
CBP and others and ORR employees who are moving them and who 
are trying to care for them.
    Ms. DeGette. And I thank the gentlelady, and her time has 
expired.
    Mrs. Brooks. Thank you. I yield back.
    Ms. DeGette. I now recognize the gentlelady from Illinois, 
Ms. Schakowsky, for 5 minutes.
    Ms. Schakowsky. I just want to say that I think this period 
in history right now, which I think is characterized by just 
unimaginable and unnecessary suffering of immigrants in this 
country that is a nation of immigrants--neither of my parents 
was born in the United States of America--will be long 
remembered and long criticized.
    In an April of 2018 Memorandum of Agreement, the Department 
of Health and Human Services agreed to share information about 
parents and family members coming forward to sponsor refugee 
children who arrived alone at the southern border with the 
Department of Homeland Security. And earlier--it is--this cruel 
and harmful policy sparked fear in many potential spouses, 
people who now are afraid to come forward. I had an incident at 
the airport in Chicago on a problem kind of like this.
    Earlier this month, HHS Office of the Inspector General 
found that many ORR facilities ``reported that it became more 
difficult to identify sponsors willing to accept children'' and 
that these difficulties resulted in ``delays in placing 
children with sponsors.'' These delays caused the average 
length of stay for children to skyrocket to 93 days in November 
of 2001.
    And I wanted to ask you, Mr. Hayes, has ORR considered 
withdrawing entirely from that MOA? And if not, why?
    Mr. Hayes. Yes. So I would answer that question in two 
ways, ma'am. Number one, I think it's important to note that 
there are certain components to the MOA that we can still 
consider very valuable--referral information, information that 
is learned by DHS after the child comes to ORR care. That's 
information that we want to be shared, and so that's how 
information sharing has happened, happens. It also memorialized 
abuse reporting to DHS that HHS might learn about after the 
child comes into our care.
    In regards to the negative impact on the average length of 
care, I became Acting Director at the very end of November of 
last year, and a few weeks later on December 18th we issued, 
with my approval, the very first of four operational directives 
that sought to deal with the--basically the negative child 
welfare implications that an increase in length of care was, 
you know, was affecting. That allowed us to discharge some 
8,000 children in about 30 days.
    Additionally, in March of this year we issued a second 
operational directive that ended the fingerprinting of moms and 
dads that were already here seeking to sponsor the children--
these are not separations, these are moms and dads that were 
already here--unless there was a red flag during the public 
records check, then we would do additional checking.
    Ms. Schakowsky. Thank you.
    Mr. Hayes. Yes, ma'am. So, yes.
    Ms. Schakowsky. OK.
    Ms. Maxwell, let me just say how appreciative I am of the 
OIG report, and I think it documents so many of the harmful 
effects of the policies that we have. And what effects do 
longer length of stays have on ORR facilities' ability to 
provide adequate health and mental health care to children in 
custody?
    Ms. Maxwell. Thank you for that question. We heard a lot 
about that from the frontline positions and clinicians that 
work with these children, and they said that it has a negative 
effect on their behavior as well as their mental health. And 
that they saw that children's mental health deteriorated the 
longer that they were in care, which is why the OIG recommends 
that ORR look at all current policies with an eye towards 
trying to figure out if there's anything in there that still 
negatively impacts the ability to release children in a timely 
way.
    Ms. Schakowsky. Thank you. What concerns and challenges did 
the clinicians and providers report with regard to treating 
children in ORR care, especially those who had been separated 
from their parents?
    Ms. Maxwell. The clinicians told us that working with 
children who had been separated from their parents was more 
challenging than the population they were used to serving who 
were unaccompanied as they came across the border. They noted 
that these children experienced a greater sense of fear, 
abandonment, post-traumatic stress, and that in many cases they 
were unable to distinguish the Federal employees that had 
separated them from the Federal employees who were trying to 
help them.
    Ms. Schakowsky. And these are long-term effects, right? Or 
can be long-term effects?
    Ms. Maxwell. That is my understanding from research, yes.
    Ms. Schakowsky. Thank you. I yield back.
    Ms. DeGette. The Chair now recognizes the gentleman from 
South Carolina, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Madam Chair. The Flores Settlement 
was, I believe, in 1997, so at least for as far back as 1997 we 
have had children apprehended at our southern border taken into 
custody and ultimately released into the country. In 2011, we 
saw the beginning, I believe, of the modern unaccompanied 
children migration into this country. It spiked again in 2014. 
In fact, I remember having a conversation with President Obama 
at the Summit of the Americas in Panama in April of 2015. I 
have a great picture of it, he and I talking about this issue. 
And I surprised him, because I told him I probably agreed with 
their administration more than some of my Republican colleagues 
about increased money going to the Northern Triangle countries 
to take care of the problem there. I remember that conversation 
vividly.
    But to listen to the other side, you would think that the 
problem of unaccompanied children coming to our border and the 
separation of children from the adults that they are with only 
happened with the election of Donald J. Trump. No, it has been 
going on the past administration, this administration, and as 
far back as 1997. What concerns me, what I said in the February 
hearing and I will say again today, is that every adult 
accompanying a child at the border isn't their parent. Human 
trafficking is real in this world, and it is happening along 
our southern border. Not only with women sold into sex slavery, 
other types of human trafficking, but also child trafficking 
and possibly child sex trafficking that is unfathomable.
    So when a child shows up at a CBP facility or apprehended 
by officers out in the desert and that child is accompanied by 
an adult, I think it is very important that our Nation tries to 
determine who that adult is and what situation that child might 
be in. Now, there are a lot of situations where family units 
come and the children are with their parents, but you don't 
know that by looking at them after they have come across the 
desert with dirt- and sweat-stained faces. It is important for 
the health and well-being of that child for us to separate that 
child from that adult and figure out whether that is their 
parent or whether that is a coyote bringing them across the 
border or a trafficker hoping to sell that child into some form 
of slavery.
    So I appreciate this Nation taking the well-being of that 
child into consideration in determining who that adult is with 
that child, because I can only imagine some of the horrors that 
that child has probably seen on his journey north, and I don't 
like to think about the horrors that that child may have 
endured on their journey north. And I definitely don't want to 
think about the children that we don't apprehend that make it 
into this country with those coyotes, those human traffickers, 
those sex traffickers, and end up in abominable situations.
    Now, we can play politics and we can blame this 
administration or that administration for separating children 
at the border in trying to determine who the adults are. We can 
play the blame game and we can play politics and all that. But 
I want to applaud the men and women sitting at this table for 
trying to have the best interest of those children at heart.
    Now, the question I have for Mr. Hayes: How do we get DNA 
testing in this so that we can more rapidly determine the 
familial relationship between that child and that adult they 
are with, or the lack thereof, so that we can prosecute that 
human trafficker? But if they are related, how can we more 
rapidly reunite those families?
    Mr. Hayes. So, Congressman, thank you for that question. 
ORR does not use DNA testing en masse. We did use it--and I 
would defer to my colleague Commander White--in some of the 
reunification efforts that were, you know, under the court-
ordered deadline last summer. It was very different from the 
normal ORR policies and procedures. I also think my colleagues 
at CBP could address some of what they do on the spot. I know 
I've had reports that that's happening and there's increasing 
in that.
    Mr. Duncan. I am out of time, and maybe the chairwoman will 
let them answer. But I will say this. I think the goal of all 
of us is to make sure that those families are reunited as soon 
as possible.
    Madam Chair, I yield back.
    Ms. DeGette. Thank you. The gentleman yields back. The 
Chair now recognizes the gentlelady from Florida, Ms. Castor, 
for 5 minutes.
    Ms. Castor. Well, thank you, Madam Chair. And thank you for 
your efforts to shine a light on this, because this new report 
chronicles the harm inflicted on children due to the cruel 
policy of family separation instituted by the Trump 
administration. This report now confirms it with in a most 
sweeping fashion and in the most sweeping fashion of any 
analysis done to date and I want to thank the Office of 
Inspector General for doing this. And the fact that these 
children are likely never to recover from the pain and cruelty 
will be a stain on this administration forever.
    Ms. Maxwell, one of the key findings in your report is that 
the kids sent to ORR facilities had previously experienced 
intense trauma such as physical or sexual abuse and other forms 
of violence within their country of origin even before their 
entry into the United States. Is that correct?
    Ms. Maxwell. That is correct. That's what we heard.
    Ms. Castor. And your report found that family separations 
resulted in a whole new level of trauma inflicted on the 
children. The report states that ``according to program 
directors and mental health clinicians, separated children 
exhibited more fear, feelings of abandonment, and post-
traumatic stress than did the children who were not 
separated.'' Is that correct?
    Ms. Maxwell. That is correct.
    Ms. Castor. You also found that ``separation from parents 
and a hectic reunification process added to the trauma the 
children had already experienced and put tremendous pressure on 
the professionals in the facilities.'' Is that correct?
    Ms. Maxwell. Indeed it is, yes.
    Ms. Castor. So let me highlight a few examples of how the 
family separation policy made the jobs of ORR providers even 
harder than it normally is. Your report found, for example, 
that some separated children could not distinguish facility 
staff from the immigration agents who separated them from their 
parents. You also quote a program clinician who said, ``Every 
single separated kid has been terrified. We are seen as the 
enemy.'' Is that accurate?
    Ms. Maxwell. Yes, we heard a number of heartbreaking 
stories from the frontline staff who treat these children.
    Ms. Castor. And we have heard that some within HHS, at 
least some ORR career officials, were trying to sound the alarm 
that a forced separation policy would be harmful for the 
children and would strain ORR, but it is not clear what 
happened to those concerns. Given that these concerns prove 
valid, are there lessons for HHS leadership about why these 
warnings either within the Department or outside the Department 
were not taken more seriously?
    Ms. Maxwell. The Inspector General has a wide range of work 
that we are doing looking at the health and safety of children 
in the facilities. But in addition to that work, we are 
exploring the factors that challenge the Department as well as 
the facilities in reunifying the children separated from their 
parents. And, as part of that work that is upcoming, we are in 
fact looking at the interagency communication prior to the 
official adoption of the zero-tolerance policy.
    Ms. Castor. And we are trying to get those documents as 
well, but the administration has stonewalled us. Have they 
stonewalled you as well?
    Ms. Maxwell. To the best of our knowledge, they have been 
forthcoming with documents to the Inspector General and have 
made staff available for our interview and discussion.
    Ms. Castor. How can you ensure that you have gotten all of 
the documents and correspondence and emails?
    Ms. Maxwell. That is an excellent question that we have 
asked ourselves many, many times. We have been engaging 
probably over the last year with the Department, and we have 
our legal counsel involved in working with the OGC within the 
Department to assure us that we have received all responsive 
documents to our requests.
    Ms. Castor. Are you confident that that has been the case, 
or do you still have questions about that?
    Ms. Maxwell. We have had in-depth conversations with the 
Department about how they procure the documents, the algorithms 
that they used, the technology they used, and at this point we 
do feel confident that the Department has been responsive to 
our requests.
    Ms. Castor. Has HHS leadership conducted an internal 
lessons-learned assessment about what happened here?
    Ms. Maxwell. I would have to defer that question to the 
Department.
    Ms. Castor. Do you think they should?
    Ms. Maxwell. I certainly hope that our report that comes 
out looking at this will in fact drive positive change and some 
reassessment and lessons learned for the Department, 
absolutely.
    Ms. Castor. Mr. Hayes, have you gone--have you had time 
to--well, I hate to put it this way. I mean, this is such a 
sweeping report and such a damning indictment on this policy, I 
mean, certainly you have gone back and accepted responsibility 
for what has happened?
    Mr. Hayes. Well, I just want to be clear. The family 
separation and zero tolerance was before my time at HHS. But I 
will say that myself, and there's a letter from Assistant 
Secretary Johnson, my immediate supervisor, back to the OIG, we 
concurred with their recommendations, and we are working on 
implementing those.
    And when I became permanent director earlier this year, 
ma'am, and I think if you polled any of the career staff at 
ORR, it was absolutely my desire to change the culture and how 
we operate inside there. I absolutely, every single day undergo 
best-practices discussions and rely heavily on the counsel of 
my senior career staff at ORR, both the child welfare experts 
and the medical team, our policy team, and the operations team. 
They're the experts.
    Ms. Castor. And if that is the case, I encourage you to do 
a better job with providing the documents to this oversight 
committee. That needs to happen.
    Mr. Hayes. OK. That would be with the Assistant Secretary 
of Legislation and her team, and it's my understanding that the 
committee staff and her team are working on that.
    Ms. DeGette. The gentlelady yields back. The Chair now 
recognizes the gentleman from Oklahoma, Mr. Mullin, for 5 
minutes.
    Mr. Mullin. Thank you, Madam Chair. And thank you for 
everyone that is here. Obviously, you are doing the best job 
you can underneath the conditions, and I just want to tell you 
thank you. I know it can be difficult, and sometimes you can 
come up here on the Hill and feel like you have been kicked 
around a little bit, but I think everybody is passionate about 
it. It doesn't matter what side of the aisle you are on. We may 
look at it a little bit different. But I do want to thank you 
for your service. It means a lot to all of us.
    Mr. Hayes, in response to the surge of the unaccompanied 
children crossing the border back in '14, did the Obama 
administration use temporary shelters to house and care for 
unaccompanied children?
    Mr. Hayes. Yes, sir. They did.
    Mr. Mullin. Do we have any of those still open today?
    Mr. Hayes. No, sir. We do not.
    Mr. Mullin. I thought Homestead in Florida was stood up.
    Mr. Hayes. Homestead was selected as a site and the 
provider. It was sometime in very late 2015, sir.
    Mr. Mullin. In 2015.
    Mr. Hayes. Yes, December, I believe.
    Mr. Mullin. But it was still underneath the Obama 
administration that it was stood up, though.
    Mr. Hayes. That is correct. In the last administration, the 
site and the provider was chosen at Homestead December 2015.
    Mr. Mullin. And that was specifically in response to the 
unaccompanied children in the surge of '14 to make sure----
    Mr. Hayes. That is correct.
    Mr. Mullin. OK.
    Mr. Hayes. It was brought on as an influx shelter, 
Congressman.
    Mr. Mullin. And just making sure I was clear on there.
    Commander White, what was the policy during the Obama 
administration to determine if the children were indeed with 
their parents or family members when they were crossing the 
border?
    Mr. White. So the determination as to whether a child is 
accompanied by a parent or is unaccompanied is a DHS 
determination, not an HHS determination, unfortunately.
    Mr. Mullin. Well, you stated that you were raising flags 
about the zero-tolerance policy, so that will tell you that 
there must have been some separation that was taking place 
before the zero-tolerance policy came into place underneath the 
Trump administration. But was there separation taking place 
underneath the Obama administration?
    Mr. White. There have always been for the history of the 
program a small number of separations for cause. However, no 
one should confuse that with the reality in the world that 
changed approximately July of 2017 when there was a tenfold 
increase in the percentage of referrals per month that were a 
result of separation. That in turn further increased with the 
formal announcement of----
    Mr. Mullin. What was the reasoning behind the zero 
tolerance?
    Mr. White. That is a question you'd have to submit to the 
Department of Justice. I wasn't in that conversation.
    Mr. Mullin. Well, what we were told was because of the 
threat of human trafficking and the fact that what our Ranking 
Member Walden has pointed out, was that some of these children 
are actually being recycled and we were seeing the same 
children, that they were being trafficked too. And so that is 
why the zero tolerance, because we had to figure out--and 
correct me if I am wrong here, Commander White. We had to 
figure out if they were actually with family, because which is 
worse: keeping them with a trafficker, or making sure that they 
are with their family so that we can make sure they are with a 
loved one? Because it is not like they are coming across the 
line with a birth certificate and proof that it is actually 
their child. How are we supposed to know if we don't have 
genetics to test that they are actually with them?
    Mr. White. Congressman, these are two extremely important 
but entirely separate issues.
    Mr. Mullin. Not really, because----
    Mr. White. The children who experience separation from 
their parents are not the children who were exclusion cases.
    Mr. Mullin. But how are we--hold on, Commander White. I am 
not trying to argue with you. I am trying to figure out, how 
else do you determine them? Are you just supposed to take the 
individual's word for it? Because I know coyotes don't lie and 
traffickers don't lie. I mean, they always tell the truth as 
soon as you get them.
    I mean, these are individuals that cross the border 
illegally, so they already broke the laws. So how is it that we 
are supposed to do our due diligence on figuring out if the 
individual is actually related to or is the parent of the 
child?
    Mr. White. That is done both by CBP for its part in the 
operation and by HHS.
    Mr. Mullin. How else do you do that until you separate?
    Mr. White. The method that's used in ORR is verification of 
relationship through consular-verified birth certificates, or 
when those are unavailable----
    Mr. Mullin. If it doesn't exist, what do you do?
    Mr. White. In those cases, DNA confirmation of biological 
maternity are----
    Mr. Mullin. In the meantime, do you separate or keep them 
together?
    Mr. White. To be clear, Congressman, you are confusing two 
issues. One is separation for cause and the other is separation 
pursuant to ZTP. They are different.
    Mr. Mullin. Well, but there was zero tolerance. I am not 
confusing the two, in all due respect. I appreciate it. I know 
darn good and well what I am talking about.
    Mr. White. You asked me if you were wrong, Congressman.
    Mr. Mullin. You had specifically said about the zero 
tolerance. That is what you have referred to multiple times. 
What I am saying is, what was the determination prior to the 
zero determination to figure it out, and if that didn't exist, 
what do you do at that point? Because you are the one that has 
been saying that you raised red flags and concerns about it. 
Well, but at the same time, the Trump administration was 
raising red flags as concerns about keeping them with people 
that they can't verify the individual is actually with them or 
not.
    And then there is no such thing as forged documents. You 
and I both know that--hahaha. So what is the determination? 
Because we know coyotes, we know the traffickers, the cartels 
are not sophisticated enough to understand what our policies 
are to start making false documentations to actually try 
pairing them together. So what else are we supposed to do?
    Ms. DeGette. The gentleman's time has expired, but I will 
allow as I have with the other Members on both sides who have 
asked the questions, I will allow the witness to answer the 
questions asked.
    Mr. White. The specific methods used by CBP to determine if 
there are doubts for parentage or not, which I have tremendous 
confidence in, I would defer to my colleague from CBP. I 
certainly can speak to our methods in ORR. But I want to be 
clear that, in the numbers that we have all reported regarding 
separations, those exclude all cases where there was any 
determination that these were not parents. So when we speak of 
the numbers in the Ms. L case, which I provided in my 
testimony, those are all parental cases not covered by an 
exclusion such as danger to the child. And I just want to be 
clear about that because the congressman is exactly right, the 
issue of false families is a compelling concern for both DHS 
and HHS, but it's a separate issue from family separation.
    Ms. DeGette. I thank the witness. The Chair now recognizes 
the very patient gentlelady from California, Ms. Barragan, for 
5 minutes.
    Ms. Barragan. And I thank you, Madam Chair. First of all, 
just to correct the record since we are talking about what 
information we are going to get to determine who are adults in 
this debate, first of all, you know, there have been 
allegations that separations have been--like, the ones 
happening under the Trump administration--have been happening 
for a long time under different administrations. Prior 
administrations used prosecutorial discretion. This 
administration, specifically Secretary Kelly, came to Congress 
and said one of the reasons they were doing it was to deter 
people. It was intentional to deter people, and they were going 
to get rid of using the prosecutorial discretion. So I wanted 
to just correct that because there is so much false information 
going around on that. Second of all, children have not died 
until this current administration.
    Ms. Maxwell, you testified earlier that children, when they 
come over, they have already experienced some type of trauma 
prior to arrival. Is that correct?
    Ms. Maxwell. That's correct.
    Ms. Barragan. And would you say that, if you come here as a 
child and you are separated from a parent, that would cause 
further trauma?
    Ms. Maxwell. That is what we heard from the clinicians in 
the field.
    Ms. Barragan. OK. And would you say that, if a child were 
separated and experienced sexual abuse or assault, that that 
would lead to further trauma?
    Ms. Maxwell. We are looking at that in our next study, but 
certainly that would be another type of trauma.
    Ms. Barragan. Do you not think that if a child is sexually 
abused that they would experience trauma?
    Ms. Maxwell. It's certainly another type of trauma. It's 
just not one that we particularly focus on in this study, and 
we will be focusing on that in a future study.
    Ms. Barragan. Is it your opinion that, if a child is 
sexually abused, they would be further traumatized?
    Ms. Maxwell. Well, of course.
    Ms. Barragan. OK. Is it your opinion that, if a child was 
slapped around and dragged, that they would suffer trauma from 
that interaction?
    Ms. Maxwell. Yes. I would just point out that the benefit 
of our report is that we are bringing voices from the field and 
we are really relying on what they're telling us about what 
they experienced with the children.
    Ms. Barragan. Right.
    And, Commander White, the Southwest Key location, those are 
ORR custody. Is that correct?
    Mr. White. Correct.
    Ms. Barragan. OK.
    Mr. White. And I'll defer to Mr. Hayes about the--but yes, 
Southwest Key is one of the large providers of ORR services to 
children.
    Ms. Barragan. Thank you. The reason I am asking this series 
of questions is because these are the types of allegations and 
videos that have shown is happening in ORR custody. And our 
children, while they may have arrived with some kind of trauma 
because of the violence in their home country, are being 
further traumatized, whether it is to separation, whether it is 
due through sexual abuse, whether it is through being 
physically abused, through slapped around and dragged around, 
and it is unacceptable. It is completely unacceptable.
    I have introduced a bill, H.R. 1336. It is a mental 
healthcare bill for children unhumanely separated from their 
parents by the Federal Government. And we hear that, when 
children get into ORR, they get some kind of mental health 
evaluation, but doesn't that mental health service end when the 
child's detention ends? Ms. Maxwell?
    Ms. Maxwell. Yes. That is my understanding.
    Ms. Barragan. Right. So this bill would say that, if a 
child suffers from mental health issues, that they would get 
ongoing coverage regardless of whether they are in custody or 
not. If we are causing additional trauma to a child, I think 
that we have the responsibility to provide services for these 
children. As one of my colleagues on the other side of the 
aisle said, we should treat these children like they are ours.
    I want to follow up on my colleagues' questioning about the 
new OIG report. It is certainly disturbing. It lays out bare 
the carnage that the family separations unleashed on these 
children. HHS claimed innocence in the family separation crisis 
and has said it did not know about the policy. But the 
committee has obtained multiple documents that demonstrate this 
isn't quite the full story.
    ORR career staff were sounding the alarm bells to HHS 
leaders nearly a year before the administration's cruel zero-
tolerance policy was enacted. We obtained a July 2017 memo from 
HHS that is in the document binder that all of you have. In 
that memo, nearly a year before family separations began, 
Commander White warned of family separations that were to be 
implemented. That is tab number 2 in the binder. In September 
2017, HHS staff again referred to a new DHS policy to separate 
families--that is binder document 6--and leaders within HHS 
were also talking about family separation policies.
    In November 2017, still well before the zero-tolerance 
policy was enacted, Eric Hargan, the then-Acting Secretary who 
now serves as Deputy Secretary, requested a briefing on family 
separations, tab 10. We even have emails from Mr. Hayes' 
predecessor, Scott Lloyd, the then-Director of ORR, who said 
that ORR noticed CBP was separating families before zero 
tolerance and ORR was tracking it. ORR and HHS leadership 
either saw this coming or should have seen this coming, and 
because HHS leadership ignored these warnings, the worst fears 
were realized.
    Mr. Hayes, just a quick question. I understand you were not 
in your position at the time, but if you had received these 
warnings in the year leading up to zero tolerance, what would 
you have done with that information?
    Mr. Hayes. If I receive any information from my senior 
career staff that raises child welfare concerns, I would share 
those with my immediate supervisor, Assistant Secretary Lynn 
Johnson.
    Ms. Barragan. Thank you, I yield back.
    Ms. DeGette. The gentlelady's time has expired. The Chair 
now recognizes the gentleman from California, Mr. Cardenas, for 
5 minutes.
    Mr. Cardenas. Thank you very much, Madam Chairwoman and 
colleagues, for having this incredibly important hearing on an 
issue that affects human beings who have come to our country in 
many, many, many cases to flee violence and in some cases 
almost certain death. And I hope and pray that we all learn 
from this both as practitioners in the field and also as 
policymakers as well as to what should be our path forward to 
making sure that we respect not only the Constitution, but we 
respect the human beings that are in our custody and in our 
care.
    When it comes to traumatic consequences on children's 
mental health--and it is not just the HHS or OIG that has come 
to this conclusion, it seems to be a universal understanding 
and belief based on science and fact. That is why we have 
protections under the Flores Settlement to prevent children 
from being indefinitely detained. Despite those protections, 
the Trump administration has issued a rule that would 
essentially dismantle Flores and permit DHS to detain children 
and families beyond the current 20-day limitation.
    Ms. Maxwell, in the recently released HHS OIG report, your 
office notes, and I will quote, ``children with longer stays 
experienced more stress, anxiety, and behavioral issues.'' The 
report adds that ``some children who did not initially exhibit 
mental health or behavioral issues began reacting negatively as 
their stays grew longer.'' Ms. Maxwell, based on these 
findings, would you agree or disagree that an increased length 
of detention can have detrimental effects on children?
    Ms. Maxwell. Certainly, as reflected in our report, we'd 
show that the length of stay has a negative effect on 
children's well-being. I'll just note that our focus was on ORR 
facilities, and the detention policy that you're referencing is 
for immigration detention centers. So our report speaks only to 
once they have already gone through the detention center into 
an ORR facility.
    And yes, absolutely what the clinicians at the front line 
told us is that, the longer the children are in care, the more 
difficult their behavior becomes and the more disillusioned 
they become and the more mental health troubles they see, even 
including self-harm and suicidal ideation.
    Mr. Cardenas. Has there ever been an opinion, a 
professional opinion or a study of value, that actually says 
that there is a differentiation between what moniker is on the 
door of the facility that the child is in when they are 
experiencing this trauma?
    Ms. Maxwell. I would just offer that the facilities that 
ORR runs are State-licensed child welfare facilities that are 
governed by Flores and provide a whole host of child-centric 
services which are different than immigration detention centers 
that have a different mission.
    Mr. Cardenas. OK.
    Commander White, when you testified before the subcommittee 
in February, you stated, and I will quote, ``toxic stress has 
consequences both for children's behavioral health and their 
physical health, and those consequences are frequently 
lifelong.'' Commander White, is there any reason to doubt the 
decades of research on the long-term traumatic effects on 
children who are detained, for example, or the U.N.'s position 
on the detention of children?
    Mr. White. The available scientific consensus of the 
effects of a toxic stress, particularly in the available 
literature on children in detention, I see no reason to 
question that scientific consensus. It is well established and 
supported by evidence.
    Mr. Cardenas. OK. Should the stress inflicted on children 
due to detention be a relevant consideration when drafting 
rules related to child detainment?
    Mr. White. I can't speak to law enforcement or detention. 
It is fundamental to any discussion of our work in ORR in child 
welfare.
    Mr. Cardenas. OK. With experts in the field emphasizing the 
detrimental effects of prolonged detention on children, I am 
concerned about who is looking out for the best interests of 
the affected children. Mr. Hayes, ORR is the expert on child 
welfare. What role did your agency play in writing this 
regulation, especially on the decision to allow prolonged 
detention of children?
    Mr. Hayes. So, Congressman, thank you for the question. So 
the role or the role that HHS played was very limited in 
regards to the overall rule. You know, it sought to codify, you 
know, consistent with the Homeland Security Act and TVPRA rules 
and regulations. We focused on our part. One of the examples, I 
think, was kind of the movement of some of the hearings from 
the Department of Justice over to the Department of Appeals 
Board, which would be inside HHS, by independent hearing 
officers in regards to certain discharges. But the overwhelming 
majority of the Flores rule was DHS.
    Mr. Cardenas. OK. Thank you very much. My time has expired. 
I will yield back.
    Ms. DeGette. I thank the gentleman. The Chair now yields to 
the gentleman from Florida, Mr. Soto, 5 minutes for the purpose 
of questioning.
    Mr. Soto. Thank you, Madam Chair.
    Director Hayes, I had sent you all a letter on September 
10th regarding the proposed facility in central Florida. We 
ended up finding out about this because a notice was sent to 
our local government officials, but not to Members of Congress, 
folks who have oversight over HHS, so I was really surprised 
about that, that I would find out through my local mayor rather 
than directly from HHS.
    What is the nature of the detention center that you all are 
looking to put in central Florida?
    Mr. Hayes. So to Ms. Maxwell's point, we don't have any 
detention facilities at HHS. Ours are child welfare centers 
that are licensed by the respective State. And I'll just say, 
Congressman, as we look to expand our permanent State-licensed 
network, we have a process at HHS where we do notify Members of 
Congress, local officials, and if you were not notified, I 
apologize on behalf of our Department.
    Mr. Soto. So what is the nature of the facility, generally 
speaking, that you are looking to locate in central Florida?
    Mr. Hayes. So--absolutely, sir. So we're looking at a 
number of sites in conjunction with the GSA to identify some 
smaller to medium-sized facilities where we can, again with 
prior interactions that I've had with your colleagues on the 
platform today, where we want to again expand our State-
licensed permanent network. We're looking to own or lease some 
of those buildings ourselves, which is a kind of change of how 
we operate at HHS, in order to give us more control over the 
capacity, and then we in turn find operatives to come in and 
run those as the child welfare folks within each of those 
shelters. So, yes, sir. Central Florida is an area given the 
population, the bilingual nature of a lot of the constituents 
there, the educational opportunities, in order to bring both 
youth care workers and clinicians on board. We have other areas 
that we're also looking at here in the DC/Northern Virginia 
area, New York, L.A.
    Mr. Soto. What would be the age group of the refugees who 
would be housed there?
    Mr. Hayes. You know, it's really too early to say because, 
again, we have a large number of different types of shelters 
we're looking at. I will say this, sir. The majority of the 
children in our care at ORR are teenagers, 13 to 17, and the 
majority of those are male. But we do need, again, specialty 
beds for parenting teens, sibling groups, you know, pregnant 
mothers that will deliver while in our care, and so, you know, 
so we need a broad array of different type of shelters and beds 
in order to timely receive these children from CBP so we can 
care for them.
    Mr. Soto. So you anticipate this center could be used to 
house children as well as adults based upon your current 
strategy?
    Mr. Hayes. Absolutely not, sir. HHS doesn't have any 
authority to house adults. These would be--when I say a 
parenting teen----
    Mr. Soto. So for children or for birthing, for women who 
are pregnant and having children?
    Mr. Hayes. Yes, let me clarify that, sir. I apologize. In 
that case we are talking about two unaccompanied alien 
children. The mother herself is a child that is under the age 
of 18 and is unaccompanied, and either the child that she has 
with her or the child that she would deliver would also be a 
UAC. So we would keep them together.
    Mr. Soto. Well, I would be remiss if I didn't mention the 
strong opposition locally to putting a center there. I want to 
turn also to Homestead next.
    Mr. Hayes. Yes, sir.
    Mr. Soto. You know, I was welcomed to headlines today about 
ORR spending $33 million so far since that facility has been 
vacated. Why do we still--why hasn't this facility been closed 
yet?
    Mr. Hayes. So that's a good question, Congressman. I 
welcome the opportunity to expand on the article that I think 
left out a lot of key facts and even misconstrued some things. 
Number one, there have not been any children there since August 
3rd. That is an accurate statement. Shortly thereafter, we did 
reduce the number of staff and the supportable census from 
2,700 down to 1,200.
    And in coordination with my planning and logistics team, 
again, senior career staff whose counsel I value significantly 
at ORR, and the fact that these migration numbers are difficult 
if not impossible to predict, those 1,200 beds are something 
that we wanted to be able to have quick access to in the event 
of an emergency because a UAC is better off in any HHS facility 
as opposed to a Border Patrol station.
    Mr. Soto. We also had asked when that facility was at least 
in part shuttered where the children who were staying there 
went. Seventy percent, we were informed, were reunited, but we 
never got a response on where the rest of these children were 
sent to. I am getting, to this date, requests from my 
constituents to know the details of this because it happened in 
our State. And again, a deeply unpopular program and a deeply 
unpopular center, because it is against a lot of our values in 
immigration.
    I realize you are here to manage it and not direct that 
policy, but will you commit to me today to get us a response in 
where the rest of the 30 percent of the children ended up being 
relocated to?
    Mr. Hayes. I won't commit to the specifics out of privacy 
and concerns and respect for the children. But I will say that 
the majority of them that were transferred to other sites 
within ORR's network, sir, were either due to medical reasons 
or they simply don't have identifiable sponsors here in the 
United States, and therefore they could not be discharged to 
family like you said. In fact, I think it ended up being 
actually more than 80 percent of them were discharged to family 
members.
    Mr. Soto. Well, without names it would be great to get at 
least the statistics on where these kids went so I could 
respond to constituent questions about this.
    Mr. Hayes. We've put those numbers forward, sir, and I 
believe they've even been shared by the media, so I don't see 
any reason why the Assistant Secretary for Legislation and her 
team couldn't get those to you in a timely fashion.
    Mr. Soto. Thank you, and I yield back.
    Mr. Hayes. Thank you, sir.
    Ms. DeGette. The gentleman yields back. The Chair now 
recognizes the ranking member for any closing remarks he might 
have.
    Mr. Guthrie. Thank you very much. So we aren't doing 
questions, just closing remarks, right?
    Ms. DeGette. Well, you can do questions, whatever you want.
    Mr. Guthrie. OK.
    Ms. DeGette. It is your time.
    Mr. Guthrie. Well, I will just close. So it is important 
that we do this and have oversight. And we know that there have 
been issues at the border. There has been crisis at the border. 
I know, and I know what my friend Mr. McKinley was talking 
about. People were even on the floor of the House and ``there 
is not a crisis at the border,'' and the media, ``not a crisis 
at the border,'' and there was. And so, we need to do 
oversight. It is our job as Members of Congress to make sure 
that things, that in our jurisdiction we have the oversight to 
look to see, look forward and wanting to see what was the 
problem, how do we solve the problem, and how can Congress help 
solve the problem.
    But the one thing that you want to see is that people are 
trying to address the problem and not just let it linger until 
Congress steps in and does something. And I think today, 
hopefully, people see that there is a big effort to make sure 
the problems that have happened at the BP facilities, at 
getting them into ORR, tracking--or not tracking, but 
understanding the data between the children--is really being, 
is being addressed. So I really appreciate that.
    I think also we need to look in a mirror. I think that we 
talked about 72 hours, we talked about 50 days, and how long is 
too long. I thought it was a little over 6 weeks, but I think, 
Chief, you said 57 days from the time you requested 
supplemental funding until the time it was approved by 
Congress?
    Mr. Modlin. Yes, sir, 57 days.
    Mr. Guthrie. And I am not one to say we should have done it 
on day 1. Congress has its duty to do due diligence and make 
sure any budget request, particularly of that size, is 
appropriate. But if we remember what happened in the spring, it 
was brought forward, we went through the spring and all of--and 
we had different debates on the floor, had appropriations bills 
as Republicans tried motions to recommit.
    The appropriate chairman and folks, people on the 
Appropriations Committee would say, ``We know it is important 
and we are going to do it, but not here, not here, not here.'' 
It kept lingering to the point where a group of Republicans 
would hold time on the floor every day in June to do different 
tactics to try to bring it to the attention. And it took to 
right before the break for 4th of July for us to get a bill to 
you say has made a major difference at the border.
    So I think 57 days, 72 hours is--we want to get them out of 
your facility sooner than 72 hours. We want them out of your 
facility sooner than 50. But 57 days is way too long for 
Congress to do its job to give you the resources you need to 
make the improvements that you have made. And we appreciate 
that, and I appreciate you being here and we still have a lot 
of work to do, and we are willing to work with you to do it. 
And I yield back.
    Ms. DeGette. I thank the gentleman.
    Chief Modlin, your career with the Border Patrol. Is that 
right? You have been there a long time.
    Mr. Hayes. Yes, ma'am, 24 years with the U.S. Border 
Patrol.
    Ms. DeGette. Twenty-four years, and I want to thank you for 
your service. And I also want you to communicate to your agents 
there at the border and your employees that we really 
appreciate their service too. And what you are saying, when you 
said they were bringing diapers from home and, you know, they 
don't want to be thrust into this anymore than anybody else 
does, and it is the same thing with the ORR personnel.
    You know, when we had the family separation I went down and 
I talked to some of those personnel, and they were just doing 
their best. These rank-and-file folks, they are just doing 
their best, and I understand that. You know, some people have 
said, ``Well, the Democrats don't understand that. They think 
that the Border Patrol are cruel.'' We do not think that at 
all.
    Mr. Modlin. Ma'am, if I could?
    Ms. DeGette. Yes, go ahead.
    Mr. Modlin. I will definitely bring that message back.
    Ms. DeGette. Thank you.
    Mr. Modlin. Because, as I know you are aware, there is 
definitely a vilification of the Border Patrol.
    Ms. DeGette. Right.
    Mr. Modlin. What I can tell you is that more than 128 
agents have died in the line of duty----
    Ms. DeGette. You bet.
    Mr. Modlin [continuing]. Protecting this country. Some of 
those agents have died, they've drowned while trying to rescue 
migrants from the Rio Grande.
    Ms. DeGette. You are right.
    Mr. Modlin. They've been run over by drug smugglers. 
They've been shot by drug smugglers and TCOs. These are agents 
that do everything every day and act professionally, 
compassionately, and sacrifice. And they're willing to 
sacrifice their lives for this country, for those migrants, for 
to secure the----
    Ms. DeGette. For human rights.
    Mr. Modlin. So I do appreciate your words.
    Ms. DeGette. And I agree. So, in your years with the Border 
Patrol, I think you can agree--and I think, Commander White, 
you would see this too--is we do have a historic waxing and 
waning of the number of people presenting at the border. It 
happens at the seasons, isn't that correct? Yes or no will 
work.
    Mr. Modlin. So there are certainly seasonal trends.
    Ms. DeGette. Right.
    Mr. Modlin. But these numbers have never been seen before.
    Ms. DeGette. Right.
    Mr. Modlin. This was not a seasonal trend.
    Ms. DeGette. But we have the seasonal trends, so then we 
saw these numbers. My colleagues on the other side of the aisle 
keep talking about how we had a huge influx of unaccompanied 
minors in 2014 under the Obama administration, so we have had 
an uncertainty at the border now for about 5 years or more. And 
I, myself, am not particularly interested in blaming, you know, 
one person or another for this influx of people, but today I am 
worried about the kids.
    So then we keep hearing this continual bashing about 57 
days for the emergency supplemental, but the fact is, this has 
been going on for a long time. And what we need to develop, I 
think what HHS needs to develop and what Homeland Security 
needs to develop, is a policy that we can somehow deal with 
these surges of children that come for whatever reason so that 
the human rights of these children can be preserved.
    And, Commander White, this is what you have been saying for 
several years, and I want to commend you for saying that. 
Irrespective of what is happening is, if you have kids that are 
being held and for whatever reason they are separated from 
their parents, they are being held without basic cleanliness or 
anything, this is psychologically damaging in the long run, and 
that is what the IG report shows.
    So my concern is that we develop a policy that has 
interoperability between the two departments so we can know how 
to treat the kids that are in the Border Patrol custody and get 
them transferred, but also so that we can keep them united with 
their parents or whoever else so that they suffer as little 
additional trauma as possible after what they have experienced, 
and I think we should be able to do that on a bipartisan basis.
    And so, this leads me to my last point, which is we have 
got to get these documents, because we have been trying to 
figure out for 8 months now--documents regarding how far up the 
chain the knowledge of this family separation went.
    Commander White, you saw in the notebook we have gotten 
some documents that indicate that there was discussion of the 
family separation for some months before it actually happened. 
What we are trying to find out is how far up the chain this 
knowledge went. And the fact that HHS has steadfastly refused 
to provide those documents to this committee is really 
disturbing, because we can't move forward until we know exactly 
what happened.
    And so, this is why I am going--Mr. Hayes, I am going to 
make one more plea. I know you are not the person in charge of 
this, but I am going to make one more plea. We have narrowed 
the list down. We need it for investigation, and this is what 
this committee's role is, and so we are going to keep pushing 
ahead on this.
    And I just want to say one last time, Commander White, I 
want to commend you for your dedication to these children. I 
know you have been as a career civil servant fighting for them 
from day one, and this committee on both sides of the aisle, we 
appreciate all of the service that you give to this country, 
and we thank you and we hope you will continue to do that.
    And last but not least, I want to ask unanimous consent 
that the contents of the document binder be introduced into the 
record and authorize staff to make appropriate redactions. 
Without objection, so ordered.\1\
---------------------------------------------------------------------------
    \1\ The information has been retained in committee files and also 
is available at https://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=109953.
---------------------------------------------------------------------------
    Ms. DeGette. I want to thank the witnesses for coming 
today, and I want to remind Members that, pursuant to the 
committee rules, they have 10 business days to submit 
additional questions for the record to be answered by witnesses 
who have appeared before the subcommittee. I ask that the 
witnesses agree to respond promptly to such questions, and with 
that the subcommittee is adjourned.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   

                                 <all>
</pre></body></html>
